<html>
<title> - UTILIZING CANINE TEAMS TO DETECT EXPLOSIVES AND MITIGATE THREATS</title>
<body><pre>[House Hearing, 113 Congress]
[From the U.S. Government Publishing Office]






    UTILIZING CANINE TEAMS TO DETECT EXPLOSIVES AND MITIGATE THREATS

=======================================================================

                                HEARING

                               before the

                            SUBCOMMITTEE ON
                        TRANSPORTATION SECURITY

                                 of the

                     COMMITTEE ON HOMELAND SECURITY
                        HOUSE OF REPRESENTATIVES

                    ONE HUNDRED THIRTEENTH CONGRESS

                             SECOND SESSION

                               __________

                             JUNE 24, 2014

                               __________

                           Serial No. 113-75

                               __________

       Printed for the use of the Committee on Homeland Security
                                     
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]




                                     

      Available via the World Wide Web: http://www.gpo.gov/fdsys/
                               __________
                               
 
                         U.S. GOVERNMENT PRINTING OFFICE 

91-447 PDF                     WASHINGTON : 2014 
-----------------------------------------------------------------------
  For sale by the Superintendent of Documents, U.S. Government Printing 
  Office Internet: bookstore.gpo.gov Phone: toll free (866) 512-1800; 
         DC area (202) 512-1800 Fax: (202) 512-2250 Mail: Stop SSOP, 
                          Washington, DC 20402-0001                              
                               
                               












                     COMMITTEE ON HOMELAND SECURITY

                   Michael T. McCaul, Texas, Chairman
Lamar Smith, Texas                   Bennie G. Thompson, Mississippi
Peter T. King, New York              Loretta Sanchez, California
Mike Rogers, Alabama                 Sheila Jackson Lee, Texas
Paul C. Broun, Georgia               Yvette D. Clarke, New York
Candice S. Miller, Michigan, Vice    Brian Higgins, New York
    Chair                            Cedric L. Richmond, Louisiana
Patrick Meehan, Pennsylvania         William R. Keating, Massachusetts
Jeff Duncan, South Carolina          Ron Barber, Arizona
Tom Marino, Pennsylvania             Dondald M. Payne, Jr., New Jersey
Jason Chaffetz, Utah                 Beto O'Rourke, Texas
Steven M. Palazzo, Mississippi       Filemon Vela, Texas
Lou Barletta, Pennsylvania           Eric Swalwell, California
Richard Hudson, North Carolina       Vacancy
Steve Daines, Montana                Vacancy
Susan W. Brooks, Indiana
Scott Perry, Pennsylvania
Mark Sanford, South Carolina
Vacancy
                   Brendan P. Shields, Staff Director
                   Joan O'Hara,  Acting Chief Counsel
                    Michael S. Twinchek, Chief Clerk
                I. Lanier Avant, Minority Staff Director
                                 ------                                

                SUBCOMMITTEE ON TRANSPORTATION SECURITY

                Richard Hudson, North Carolina, Chairman
Mike Rogers, Alabama, Vice Chair     Cedric L. Richmond, Louisiana
Candice S. Miller, Michigan          Sheila Jackson Lee, Texas
Susan W. Brooks, Indiana             Eric Swalwell, California
Mark Sanford, South Carolina         Bennie G. Thompson, Mississippi 
Michael T. McCaul, Texas (ex             (ex officio)
    officio)
               Amanda Parikh, Subcommittee Staff Director
                    Dennis Terry, Subcommittee Clerk
         Brian Turbyfill, Minority Subcommittee Staff Director





















                            C O N T E N T S

                              ----------                              
                                                                   Page

                               Statements

The Honorable Richard Hudson, a Representative in Congress From 
  the State of North Carolina, and Chairman, Subcommittee on 
  Transportation Security........................................     1
The Honorable Cedric L. Richmond, a Representative in Congress 
  From the State of Louisiana, and Ranking Member, Subcommittee 
  on Transportation Security:
  Oral Statement.................................................     2
  Prepared Statement.............................................     3
The Honorable Bennie G. Thompson, a Representative in Congress 
  From the State of Mississippi, and Ranking Member, Committee on 
  Homeland Security:
  Prepared Statement.............................................     4

                               Witnesses

Ms. Melanie Harvey, Director, Threat Assessment Division, 
  Transportation Security Administration, U.S. Department of 
  Homeland Security:
  Oral Statement.................................................     6
  Joint Prepared Statement.......................................     7
Ms. Annmarie Lontz, Division Director, Office of Security 
  Services And Assessments, Transportation Security 
  Administration, U.S. Department of Homeland Security:
  Oral Statement.................................................    10
  Joint Prepared Statement.......................................     7
Ms. Jennifer A. Grover, Acting Director, Homeland Security and 
  Justice, Government Accountability Office:
  Oral Statement.................................................    11
  Prepared Statement.............................................    13
Mr. Chris Connell, President, Commodity Forwarders, Inc., 
  Testifying on Behalf of The Airforwarders Association:
  Oral Statement.................................................    23
  Prepared Statement.............................................    25

                             For the Record

The Honorable Richard Hudson, a Representative in Congress From 
  the State of North Carolina, and Chairman, Subcommittee on 
  Transportation Security:
    Statement of K2 Solutions, Inc...............................    27

                                Appendix

Questions Submitted By Chairman Richard Hudson for Melanie Harvey    41
Questions Submitted By Vice Chairman Michael D. Rogers for 
  Melanie Harvey and Annmarie Lontz..............................    41

 
    UTILIZING CANINE TEAMS TO DETECT EXPLOSIVES AND MITIGATE THREATS

                              ----------                              


                         Tuesday, June 24, 2014

             U.S. House of Representatives,
           Subcommittee on Transportation Security,
                            Committee on Homeland Security,
                                                    Washington, DC.
    The subcommittee met, pursuant to call, at 2:52 p.m., in 
Room 311, Cannon House Office Building, Hon. Richard Hudson 
[Chairman of the subcommittee] presiding.
    Present: Representatives Hudson, Rogers, Brooks, and 
Richmond.
    Mr. Hudson. The Committee on Homeland Security's 
Subcommittee on Transportation Security will come to order. 
Subcommittee is meeting today to hear testimony on the use of 
canine teams to detect explosives and mitigate threats. I now 
recognize myself for an opening statement.
    First, I would like to thank all of our witnesses for their 
participation. We know your time is valuable and we appreciate 
you being here today to discuss this important issue.
    Most of us who have dogs know how incredibly intelligent 
and capable they are at detecting the slightest changes in 
their environments. When that intelligence is coupled with the 
highly selective breeding, months of intensive training, and 
breakthrough developments in science and technology, canines 
become one of the most trusted assets for law enforcement and 
military operations in critical environments. They serve as one 
of the most reliable security tools that exist today.
    TSA has the second-largest number of explosive detection 
canine teams in the Federal Government, after the Department of 
Defense. TSA's National Explosives Detection Canine Team 
Program has a critical mission to deter and to detect the 
introduction of explosives into all the Nation's transportation 
systems.
    With 985 teams today, including 675 teams handled by local 
law enforcement, and 310 teams handled by TSA inspectors, that 
is twice the number of teams that existed just 8 years ago. 
While we have come a long way in recent years, I believe TSA 
can and should continue to increase its use of canines in all 
aspects of its mission from passenger and baggage screening to 
air cargo screening.
    One way TSA has diversified its canine program is by 
incorporating passenger screening canine teams into its risk-
based security initiative known as Managed Inclusion. This 
initiative uses a combination of behavioral detection officers 
and passenger screening canine teams to conduct a real-time 
threat assessment of passengers at certain airports, to give 
them access to free check benefits on a flight-by-flight basis.
    The canines used by TSA to conduct passenger screening 
represents a less invasive, highly effective approach. I would 
like to examine how canines can become a primary layer of 
security at airports, and not just used through Managed 
Inclusion, but as an every-day central layer of passenger 
screening operations.
    In addition, TSA is working with other Federal entities to 
establish common guidelines and a baseline standard for 
Federal, State, local, and private-sector explosive detection 
canine assets. This committee and many stakeholders have long 
advocated for establishing common standards. I am hopeful that 
TSA will continue to make progress in this area.
    I look forward to hearing from our TSA witnesses on whether 
common standards will help us move forward in providing the air 
cargo industry with the ability to utilize third-party canine 
teams to screen cargo. I believe we will hear from at least one 
of our witnesses today that this initiative is long overdue.
    In January 2013 GAO released a report on TSA's canine 
program that offered three recommendations to TSA, including 
analyzing available areas that are working well and those that 
need corrective action, assessing overall effectiveness of 
passenger screening canines as compared to traditional canine 
teams, and coordinating with airport operators to deploy teams 
to the highest-risk airports.
    GAO has informed the committee that it is prepared to close 
its first recommendation, and that TSA has made progress on 
addressing the other two recommendations. I look forward to 
receiving a status update from our GAO witness here today on 
this.
    Finally, it is important to note that the fiscal year 2015 
DHS appropriations bill that passed the House Appropriations 
Committee 2 weeks ago includes an additional $5 million for TSA 
canine teams, which will allow TSA to accelerate deployment and 
training of new teams. I am pleased to see this increase is 
included in the bill, and will continue to work with Chairman 
Carter and the rest of my colleagues to ensure full funding for 
this critical layer of security.
    Again, I want to thank all of our witnesses for being here 
today. I now recognize the Ranking Member of the subcommittee, 
the gentleman from Louisiana, Mr. Richmond, for an opening 
statement.
    Mr. Richmond. Thank you, Mr. Chairman. Thank you for 
convening this hearing.
    I would also like to thank our panel of witnesses for being 
here today to give us valuable insight into TSA's use of 
canines and the role they play in aviation security for both 
passenger and cargo screening, as well as how they can be used 
more effectively in both domains.
    The Transportation Security Administration ensures the 
security of the traveling public using a multi-layered 
approach. Highly-trained canine teams comprise a small part of 
this approach. But when used in an efficient and smart manner, 
they are an extremely effective tool within a larger toolbox 
that can thwart nefarious actors.
    However, in January 2013 GAO released a report that was 
critical of TSA's handling of the roll-out of its passenger 
screening canines. Specifically the report stated that there 
was concern with the methodology that TSA implemented when 
deploying and testing the canine teams.
    In their prepared testimony for the hearing today GAO noted 
that TSA is taking steps to analyze canine team data, and to 
identify program trends. I am eager to hear about the progress 
TSA has made in this regard, and also whether there is more 
that can be done by the agency to ensure that canine teams are 
being used in a thoughtful and efficient manner.
    Ms. Harvey and Ms. Lontz, thank you for being here. Thank 
you for the role that you play in helping keep the traveling 
public secure.
    I read your prepared testimony and was particularly 
interested in the section about the use of passenger screening 
canines in the Managed Inclusion process. You noted that these 
canine teams operate at more than 25 airports during peak 
travel times to help reduce waiting times. I know that these 
airports also have explosive trace detection equipment in place 
to perform the same function.
    I look forward to learning if there are efficiencies that 
can be achieved by using one method over another or some 
combination of the two, as the cost for the technology as well 
as the passenger screening canines is great.
    I am also interested in the role that explosive detection 
canine teams play in the maritime environment. As you know, New 
Orleans has a great deal of passengers who travel to and from 
the city to other destinations aboard cruise ships. I 
understand that most of the work performed in the maritime 
environment by canines is primarily in reference to ferries, 
but would be interested to know that the role that canines play 
in the screening of passengers and cargo aboard cruise ships 
such as during the VIPR operations.
    Mr. Connell, thank you for appearing before the 
subcommittee today. I know that there is significant interest 
from the cargo screening industry in having privatized canines 
screen cargo as a means of having another platform available to 
detect threats.
    I look forward to hearing about the screening methods that 
are already in place, as well as how the use of privatized 
canines would affect your operations, and what savings might 
stem from their use. I am also interested in the respondents to 
the survey you reference in your prepared testimony who 
indicated that they would not consider using dogs provided by 
private companies and why they would not use them.
    Once again, thank you all for being here today. I look 
forward to a healthy dialogue on this topic.
    With that, Mr. Chairman, I yield back the balance of my 
time.
    [The statement of Ranking Member Richmond follows:]
             Statement of Ranking Member Cedric L. Richmond
                             June 24, 2014
    I would like to thank our panel of witnesses for being here today 
to give us valuable insight into TSA's use of canines and the role they 
play in aviation security for both passenger and cargo screening, as 
well as how they can be used more effectively in both domains.
    The Transportation Security Administration ensures the security of 
the traveling public using a multi-layered approach. Highly-trained 
canine teams comprise a small part of this approach, but when used in 
an efficient and smart manner, they are an extremely effective tool 
within a larger toolbox that can thwart nefarious actors.
    However, in January 2013, GAO released a report that was critical 
of TSA's handling of the roll-out of its passenger screening canines. 
Specifically, the report stated that there was concern with the 
methodology that TSA implemented when deploying and testing the canine 
teams. In their prepared testimony for the hearing today, GAO noted 
that TSA is taking steps to analyze canine team data and to identify 
program trends. I am eager to hear about the progress TSA has made in 
this regard and also whether there is more that can be done by the 
agency to ensure that canine teams are being used in a thoughtful and 
efficient manner.
    Ms. Harvey and Ms. Lontz, thank you for being here, and thank you 
for the role that you play in helping keep the traveling public secure. 
I read your prepared testimony and was particularly interested in the 
section about the use of Passenger Screening Canines in the Managed 
Inclusion process. You noted that these canine teams operate at more 
than 25 airports during peak travel times to help reduce waiting times.
    I know that these airports also have explosive trace detection 
equipment in place to perform the same function.
    I look forward to learning if there are efficiencies that can be 
achieved by using one method over another, or some combination of the 
two, as the cost for the technology, as well as the passenger screening 
canines, is great. I am also interested in the role that explosive 
detection canine teams play in the maritime environment. As you know, 
New Orleans has a great deal of passengers who travel to and from the 
city to other destinations aboard cruise ships.
    I understand that most of the work performed in the maritime 
environment by canines is primarily in reference to ferries, but would 
be interested to know the role that canines play in the screening of 
passengers and cargo aboard cruise ships, such as during VIPR 
operations.
    Mr. Connell, thank you for appearing before the subcommittee today. 
I know that there is significant interest from the cargo screening 
industry in having privatized canines screen cargo as a means of having 
another platform available to detect threats. I look forward to hearing 
about the screening methods that are already in place, as well as how 
the use of privatized canines would effect your operations and what 
savings might stem from their use.
    I am also interested in the respondents to the survey you 
referenced in your prepared testimony who indicated that they would not 
consider using dogs provided by private companies, and why they would 
not use them. Once again, thank you all for being here today, and I 
look forward to a healthy dialogue on this topic.

    Mr. Hudson. Thank the gentleman.
    Other Members of the committee are reminded that opening 
statements may be submitted for the record.
    [The statement of Ranking Member Thompson follows:]
             Statement of Ranking Member Bennie G. Thompson
                             June 24, 2013
    In a time of shrinking budgets, TSA's canine program has the 
unusual distinction of having received increases in funding since 
fiscal year 2010. This year, TSA will spend $126 million to deploy 
canines to airports and mass transit hubs across the country. Increases 
in funding for TSA's canine program can be directly attributed to TSA's 
decision in 2011 to begin using canines to screen passengers and their 
property at airports.
    Unfortunately, as the Government Accountability Office detailed in 
its report last year, TSA faced several challenges in its initial 
deployment of passenger screening canines. According to GAO, TSA failed 
to deploy passenger screening canine teams in a risk-based fashion and 
did not fully assess their effectiveness prior to placing them into the 
field.
    While TSA has passenger screening canine teams placed at the most 
high-risk airports across the country today, a comprehensive assessment 
of their effectiveness has still not been conducted. Specifically, TSA 
has resisted GAO's recommendation that the agency conduct tests to 
determine whether passenger screening canines are more effective at 
identifying explosives on passengers than traditional, less costly, 
explosive detection canines.
    Without conducting the assessment recommended by GAO, we can have 
no way of knowing whether the additional $18,000 per-team TSA is paying 
for passenger screening canines is money well-spent. With 144 passenger 
screening canine teams currently deployed, that extra $18,000 in start-
up costs for each passenger screening canine team has already cost 
taxpayers more than $2.5 million. That is $2.5 million that TSA has no 
way of assuring us has been spent on a superior product.
    I look forward to hearing from TSA today regarding their plans to 
address all of GAO's recommendations regarding passenger screening 
canines. I am also eager to hear from TSA about how canines serve as a 
better tool for reducing risk in the passenger screening environment 
than less-costly alternatives, such as explosive trace detection 
technology.
    At some airports, TSA uses canines as part of its Managed Inclusion 
program. At others, it uses explosive trace detection technology for 
the same program and purpose. It must be asked, if the explosive trace 
detection technology is as effective at screening passengers for 
explosives as canines, why is the less-costly alternative not being 
used exclusively?
    Before yielding back, I would like to acknowledge Mr. Connell's 
suggestion in his prepared testimony that TSA allow third-party canine 
teams to screen cargo carried on passenger aircraft. The 9/11 Act 
authorized TSA to approve the use of canines for screening cargo 
carried on passenger aircraft. It is my understanding that TSA is not 
opposed to allowing third-party canine teams to screen cargo on policy 
grounds but has concerns about the costs associated with performing 
oversight of such a regime.
    I look forward to hearing from TSA regarding the anticipated cost 
associated with overseeing third-party canine screening. I am also 
eager to hear from Mr. Connell regarding how industry may be willing to 
offset the cost to taxpayers associated with the necessary Federal 
oversight of third-party private-sector canine screening of cargo.

    Mr. Hudson. We are pleased to have a distinguished panel of 
witnesses before us today.
    Ms. Melanie Harvey is the division director of the Threat 
Assessment Division within the Office of Security Operations at 
TSA. As division director Ms. Harvey leads agency-wide efforts 
to plan, deploy, implement, and analyze real-time threat 
detection programs. Ms. Harvey manages policy, risk-based 
allocation, training, and quality assurance for TSA's 
explosives operations, behavior detection, and canine programs.
    Ms. Annmarie Lontz is the division director for the Office 
of Law Enforcement's Office of Security Services and 
Assessments at TSA. Ms. Lontz joined the Federal Air Marshal 
Service in 1993, and has held her current position since July 
2013, where she manages nine diverse sections within her 
office. Ms. Lontz was a special agent with the Federal Aviation 
Administration for 10 years and conducted investigations and 
security assessments domestically and internationally into 
airport and air carrier security.
    Ms. Jennifer Grover is an acting director within GAO's 
Homeland Security and Justice team, leading a portfolio of work 
on transportation security issues. Prior to her work in 
Homeland Security and Justice, Ms. Grover was an assistant 
director in GAO's Health Care team, where she led her views on 
a diverse range of health-care related issues. Ms. Grover 
joined GAO in 1991.
    Mr. Chris Connell is the president of Commodity Forwarders, 
Inc., and testifying on behalf of the Airforwarders 
Association. The Airforwarders Association is an alliance of 
nearly 400 indirect air carriers, cargo airlines, and 
affiliated businesses that serve as the voice of the 
airforwarding industry. Mr. Connell has been with Commodity 
Forwarders for 24 years, working in various positions in 
warehouses, customer service, and sales positions, culminating 
with him being named president in 2006.
    The witnesses' full written statements will appear in the 
record. The Chairman now recognizes Ms. Harvey to testify.

   STATEMENT OF MELANIE HARVEY, DIRECTOR, THREAT ASSESSMENT 
    DIVISION, TRANSPORTATION SECURITY ADMINISTRATION, U.S. 
                DEPARTMENT OF HOMELAND SECURITY

    Ms. Harvey. Good afternoon, Chairman Hudson, Ranking Member 
Richmond, and Members of the subcommittee. Thank you for the 
opportunity to testify today regarding TSA's Explosive 
Detection Canine Teams and transportation security.
    TSA's National Explosive Detection Canine Team Program 
trains and deploys both TSA-led and State and local-led canine 
teams in support of day-to-day activities that protect people 
and transportation. These highly-trained teams are an effective 
resource for detecting explosives and providing a visible 
deterrent to terrorism.
    TSA canine teams are also a timely and noble response for 
rail stations, airports, passenger terminals, and surface 
carriers. They are a key component of TSA's multi-layered risk-
based security model. The success of the canine program is a 
prime example of Federal, State, and local governmental 
entities working together to provide the most effective 
security in the most efficient way.
    TSA's canine program has a storied history, beginning in 
1972 with the creation of a unique program under the Federal 
Aviation Administration. The FAA canine program was transferred 
to TSA in 2003, shortly after its formation. Congress has 
recognized the value of TSA's program through continuous 
funding which has resulted in the largest explosive detection 
canine program in the Department of Homeland Security, and the 
second-largest in the Federal Government behind the Department 
of Defense.
    Today, 985 funded canine teams are allocated to 171 
locations in 114 cities across the country. TSA allocates these 
teams to specific cities and airports using risk-based criteria 
that take into account multiple factors including passenger 
throughput and threats to transportation security in the 
immediate geographical area.
    The majority of our teams are comprised of a canine and a 
State or local canine handler. For these teams TSA provides and 
trains the dogs, trains the handler, provides training aides 
and explosive storage magazines, and conduct annual on-site 
canine team recertifications.
    TSA partially reimburses each participating agency for 
operational costs associated with maintaining the teams. In 
return the State and local agencies agree to deploy the teams 
in their assigned transportation environment at least 80 
percent of the handler's duty time. State and local 
participation in the program is voluntary and TSA appreciates 
the critical role that they play in securing transportation.
    Some of TSA's own Transportation Security Inspectors, or 
TSIs, also handle canines. Approximately one-third of current 
canine teams are led by TSIs, including every one of the 
passenger screening canine teams, which are specifically 
trained to search people for explosives odor.
    The passenger screening canine, or PSC, methodology is both 
complex and operationally demanding when compared to 
traditional explosive detection canine work. PSC handlers must 
have the ability to observe the canine and passengers while 
noticing the potential subtle changes in behavior of their 
canine while working in confined spaces.
    As a result of their specialized training and capability, 
PSC teams play a unique role in risk-based security at TSA. In 
2012 TSA expanded the PreCheck population through an initiative 
known as Managed Inclusion. By combining existing layers of 
security in the passenger queue, including PSC teams, TSA is 
making real-time threat assessments of the passenger base as 
they present for screening.
    Currently TSA's PSC teams operate at 27 airports during 
peak travel times where they increase security and reduce wait 
times. Canine teams complement other checkpoint technologies 
that offer different capabilities, such as detection of other 
prohibited items and advanced alarm resolution.
    The recommendations of the 9/11 Commission Act included a 
requirement for DHS to examine the use of third-party explosive 
detection canine teams for air cargo screening, and set 
performance standards. In 2011, in partnership with the DHS 
Science and Technology Directorate, TSA conducted a third-party 
pilot assessment to examine the use of these teams in the cargo 
environment.
    TSA and DHS S&T analyzed current industry detection canine 
capabilities to determine the degree of modification needed to 
adopt and implement TSA standards. While there is little 
question that canine teams can effectively buy down risk when 
used to screen cargo, the pilot identified numerous 
requirements and challenges for program implementation.
    Some of these challenges include industry's need for access 
to explosives, TSA oversight required for explosives handling, 
and the operational mechanics and resource requirements for 
certification evaluation of these teams on a Nation-wide scale.
    In conclusion, TSA's National Explosives Detection Canine 
team is instrumental to risk-based security, and offers a 
unique capability to deter and detect explosives throughout 
transportation venues.
    Thank you for the opportunity to discuss TSA's program with 
you today. I am pleased to answer your questions.
    [The joint prepared statement of Ms. Harvey and Ms. Lontz 
follows:]
     Joint Prepared Statement of Melanie Harvey and Annmarie Lontz
                             June 24, 2014
    Chairman Hudson, Ranking Member Richmond, and Members of the 
subcommittee, thank you for the opportunity to testify regarding 
explosives detection canine teams and transportation security. The 
mission of the Transportation Security Administration (TSA) is to 
protect the Nation's transportation systems to ensure freedom of 
movement for people and commerce. TSA's National Explosives Detection 
Canine Team Program (NEDCTP) trains and deploys both TSA-led and State 
and local law enforcement-led canine teams in support of day-to-day 
activities that protect the transportation domain. These highly-trained 
explosive detection canine teams have proven to be a reliable resource 
at detecting explosives and provide a visible deterrent to terrorism 
directed towards transportation systems. TSA canine teams are also 
considered a timely and mobile response for support facilities, rail 
stations, airports, passenger terminals, seaports, and surface 
carriers. They are a key component of TSA's risk-based security model 
and an important layer of TSA's multi-layered security program. The 
success of the NEDCTP is a prime example of Federal, State, and local 
governmental entities working together with a common goal--to help 
secure our Nation's transportation system.
    TSA's NEDCTP has a storied history, beginning in 1972 with the 
creation of a unique Federal program, which established the Federal 
Aviation Administration's (FAA) Explosives Detection Canine Team 
Program. The FAA program was designed to place certified teams at 
strategic locations throughout the Nation, so any aircraft receiving a 
bomb threat could quickly divert to an airport with a canine team. The 
FAA program was transferred to TSA in 2002, shortly after its 
formation, and has continued to expand. Congress has recognized the 
value of TSA's National Explosives Detection Canine Team Program 
through continuous funding which has resulted in the largest explosives 
detection canine program in the Department of Homeland Security (DHS) 
and the second-largest in the Federal Government behind the Department 
of Defense (DoD).
    Today, 985 funded National Explosives Detection Canine teams are 
stationed at more than 100 of the Nation's airports, mass transit, and 
maritime systems. TSA trains canine teams to operate in the aviation, 
multimodal, maritime, mass transit, and cargo environments. The 
majority of canine teams working in the aviation environment are 
comprised of a dog and a local or State law enforcement officer. For 
these teams, TSA provides and trains the dog, trains the handler, 
provides training aides and explosive storage magazines, and conducts 
annual on-site canine team re-certifications. TSA partially reimburses 
each participating agency for operational costs associated with 
maintaining the teams, including veterinarians' fees, handlers' 
salaries, dog food, and equipment. In return, the law enforcement 
agencies agree to use the canines in their assigned transportation 
environment at least 80 percent of the handler's duty time. State and 
local law enforcement participation in the program is voluntary, and 
they play a critical role in TSA's mission to ensure the safe movement 
of commerce and people throughout the Nation's transportation security 
environment.
     passenger screening canines (pscs) and managed inclusion (mi)
    TSA's Transportation Security Inspectors (TSIs) also lead canine 
teams. Approximately one-third of current canine teams are led by TSIs, 
including every one of the 144 funded Passenger Screening Canine teams, 
which are specifically trained to detect explosives' odor on passengers 
in the checkpoint environment in addition to their conventional role.
    As a result of their proven effectiveness, Passenger Screening 
Canine teams play a unique role in Risk-Based Security at TSA. In 2013, 
TSA expanded the TSA PreCheck<SUP>TM</SUP> population through the use 
of real-time threat assessments in an initiative known as Managed 
Inclusion. By combining existing layers of security in the passenger 
queue, including Passenger Screening Canines, TSA is making real-time 
threat assessments of the passenger base as they present for screening. 
This enables TSA to more fully utilize TSA PreCheck<SUP>TM</SUP> 
screening lanes in airports where they are not able to operate at their 
full TSA PreCheck<SUP>TM</SUP> capacity. Currently, TSA Passenger 
Screening Canine teams operate at more than 25 airports as part of 
Managed Inclusion and are deployed to operate during peak travel times, 
where they will have the opportunity to screen as many passengers as 
possible, helping to reduce wait times.
    In addition to deployments at the checkpoints supporting the 
Managed Inclusion process, all TSA and law enforcement-led teams 
conduct a variety of search and high-visibility activities that address 
potential threats in the transportation domain. For example, canine 
teams play a role during Visible Intermodal Prevention and Response 
(VIPR) operations. VIPR teams can include a variety of Federal, State, 
and local law enforcement and security assets as well as TSA personnel 
including Federal Air Marshals, Transportation Security Specialists--
Explosives, Transportation Security Inspectors, and TSA-certified 
explosives detection canine teams.
    At airports, TSA-led canine teams conduct risk-driven operations to 
address potential vulnerabilities in aviation security that are 
airport-specific, including no-notice plane-side screening of cargo, 
gate screening, and employee screening at high-volume secured area 
access points. These vulnerabilities are often identified through 
coordination with local or National security partners, including the 
Federal Bureau of Investigation, local law enforcement, and the 
National Targeting Center for Cargo.
    Canine teams have been proven to be one of the most effective means 
of detecting explosive substances. Canine teams complement other 
technologies that offer expanded capabilities in terms of detecting 
other prohibited items, including firearms.
                 deployment, acquisition, and training
    TSA allocates canine teams to specific cities and airports 
utilizing risk-based criteria that take into account multiple factors, 
including passenger throughput and threats to transportation security 
in the immediate geographical area of a transportation domain.
    With increasing demand for high-quality explosive detection dogs, 
particularly those best-suited for passenger screening, TSA must ensure 
a reliable and adequate supply of canines. The primary source for TSA 
canines is through an Interagency Service Support Agreement (ISSA) with 
the DoD. Pursuant to the terms of the ISSA and as a result of our 
strong relationship with DoD's ``Working Dog Program,'' approximately 
230 canines are supplied to TSA each year. TSA's Canine Training and 
Evaluation Section (CTES) partners with DoD during the canine selection 
and evaluation process with both State-side vendors and overseas buy 
trips, ensuring TSA's needs are met. TSA is well-positioned to procure, 
train, and continue to deploy highly-effective canine resources.
    NEDCTP deploys single-purpose explosive detection canines that are 
trained on a variety of explosives. The types of explosives are based 
on intelligence data and emerging threats. Conventional explosives 
detection canine handlers undergo an intensive 10-week training course, 
and passenger screening canine handlers undergo a 12-week training 
course, all held at the TSA Canine Training Center at Lackland Air 
Force Base in San Antonio, TX. This course of instruction is a ``co-
located course,'' managed by TSA's CTES, whereby TSA shares the use of 
the U.S. Air Force training facilities on base. However, TSA controls 
the course curriculum and the certification of the teams to TSA-
certification standards. The training course and facilities in San 
Antonio, Texas, are considered to be the ``Center of Excellence'' for 
explosives detection canine training in the United States.
    Canine teams graduate from the TSA canine course after 
demonstrating proficiency in various venues inclusive of all 
transportation environments including airport, terminal, freight, 
cargo, baggage, vehicle, bus, ferry, and rail. Once a team graduates 
from the training program, they return to their duty station to 
acclimate and familiarize the canine to their assigned operational 
environment. Approximately 30 days after graduation, an Operational 
Transition Assessment (OTA) is conducted to ensure each team 
demonstrates operational proficiency in their environment. OTA 
assessments include four key elements: The canine's ability to 
recognize explosives odors, the handler's ability to interpret the 
canine's change of behavior, the handler's ability to conduct logical 
and systematic searches, and the team's ability to locate the 
explosives odor source. Upon successful completion of the OTA, NEDCTP 
canine teams are then evaluated on an annual basis under some of the 
most stringent certification standards.
                    international security programs
    In 2013, TSA established and implemented a formal process for 
evaluating and recognizing National Explosives Detection Canine 
Security Programs (K9 SPs) in foreign countries for use in aviation 
security, checked baggage, and accessible property. Recognition of K9 
SPs has several benefits; it allows for greater facilitation of goods, 
commerce, and people between countries and eases the burden on industry 
by lifting, where appropriate, duplicative or redundant measures while 
still ensuring the highest levels of security. TSA has conducted formal 
document reviews of several international partners to include New 
Zealand, the European Union, and South Africa. In order to recognize 
National canine security programs as commensurate with the components 
of the TSA canine program, TSA employs a system-to-system approach when 
reviewing a canine security program. This system-to-system approach 
involves analysis of a host country's security program using a 
framework of five fundamental security criteria: Explosive detection 
certifications, training, utilization, explosives training aids, and 
oversight and compliance. The approach ensures that the combination of 
the components that make up a host country's security program provide a 
level of security that is commensurate with the components of the TSA 
Canine Program's own security system. To date, TSA continues to receive 
requests for recognition from international canine programs.
                           third-party canine
    Recommendations of the 9/11 Commission Act of 2007 directed DHS to 
examine the use of third-party explosive detection canine teams for air 
cargo screening. In 2011, TSA, in coordination with the DHS Science and 
Technology Directorate (S&T), conducted a Third-Party Pilot Assessment 
to examine the use of these teams in the cargo environment. TSA and DHS 
S&T analyzed current industry detection canine capabilities through a 
pilot to determine the degree of modification to industry programs 
needed to adopt and implement TSA screening standards. The assessment 
revealed inconsistent results of industry programs due to 
unsatisfactory odor recognition and performance. However, TSA remains 
open to future proposals on third-party canine use.
                         industry collaboration
    TSA has partnered with the National Security Staff Transborder 
Security Sub-Interagency Policy Committee on Working Dogs to establish 
a baseline standard for Federal, State, local, and private-sector 
explosives detection canine assets to enhance interoperability of 
standards for explosives detection canine team programs. Currently, the 
committee is working towards a final time line for final coordination, 
clearance, and limited publication of the draft guidelines in the 
Federal Register.
                               conclusion
    In conclusion, the National Explosives Detection Canine Program 
provides highly-trained canine teams focused on furthering TSA's 
mission to secure the Nation's transportation systems. They are 
instrumental in risk-based security and offer a unique capability to 
deter and detect explosives throughout transportation venues. Thank you 
for the opportunity to discuss this important issue with you today.

    Mr. Hudson. Thank you, Ms. Harvey.
    The Chairman recognizes Ms. Lontz to testify.

   STATEMENT OF ANNMARIE LONTZ, DIVISION DIRECTOR, OFFICE OF 
  SECURITY SERVICES AND ASSESSMENTS, TRANSPORTATION SECURITY 
      ADMINISTRATION, U.S. DEPARTMENT OF HOMELAND SECURITY

    Ms. Lontz. Chairman Hudson, Ranking Member Richmond, and 
Members of the subcommittee, I too would like to thank you for 
the opportunity to testify today regarding TSA's Explosives 
Detection Canine Teams and transportation security.
    As the division director for the TSA Office of Law 
Enforcement Federal Air Marshal Service, Security Services and 
Assessments Division, I am charged with the oversight of the 
Canine Training and Evaluation Section, located primarily at 
Lackland Air Force Base in San Antonio, Texas.
    The Canine Training and Evaluation Section, or CTES, 
supports Division Director Harvey's National Explosives 
Detection Canine Team Program through the procurement of 
canines, initial training and certification of canine teams, 
and recertification of deployed canine teams.
    With increasing demand for a high-quality explosive 
detection dogs, particularly those best-suited for passenger 
screening, TSA must ensure a reliable and adequate supply of 
canines. The primary source for TSA canines is through an 
interagency service support agreement with the Department of 
Defense. Pursuant to the terms of the agreement, and as a 
result of our strong relationship with DOD's working dog 
program, approximately 230 canines are supplied to TSA each 
year.
    TSA's Canine Training and Evaluation Section partners with 
DOD during the canine selection and evaluation process, both 
with State-side and international vendors, ensuring that TSA's 
needs are met. As a result, TSA is well-positioned to procure, 
train, and continue to deploy highly-effective canine 
resources.
    TSA deploys explosive detection canines that are trained on 
a variety of explosives, primarily based on intelligence data 
and emerging threats. Conventional explosives detection canine 
handlers undergo an intensive 10-week training course, and 
passenger screening canine handlers undergo an additional 2 
weeks for a total of 12 weeks of training. All is held at the 
TSA Canine Training Center at Lackland Air Force Base.
    This course of instruction is a co-located course managed 
by TSA's CTES, whereby TSA shares the use of the U.S. Air Force 
training facilities on base. However, TSA controls the course 
curriculum and the certification of the teams to TSA's 
certification standards. The training course and facilities in 
San Antonio, Texas are considered to be the Center of 
Excellence for explosive detection canine training in the 
United States.
    Canine teams graduate from the TSA canine course after 
demonstrating proficiency in various venues inclusive of all 
transportation environments including airport, terminal, 
freight, cargo, baggage, vehicle, bus, ferry, and rail. Once a 
team graduates from the training program they return to their 
duty station to acclimate and familiarize the canine to their 
assigned operational environment.
    Approximately 30 days after graduation an Operational 
Transition Assessment is conducted to ensure that each team 
demonstrates operational proficiency in their environment. 
Operational Transition Assessments include four key elements: 
The canine's ability to recognize explosive odors; the 
handler's ability to interpret the canine's change of behavior; 
the handler's ability to conduct logical and systematic 
searches; and the team's ability to locate the explosive odor 
source.
    Upon successful completion of the OTA, the National 
Explosive Detection Canine Program teams are then evaluated on 
an annual basis under some of the most comprehensive 
certification standards requiring that they demonstrate their 
ability to detect all the explosives to which they may 
potentially be exposed.
    TSA's highly-trained Explosive Detection Canine Teams have 
proven to be a reliable resource at detecting explosives and 
providing a visible deterrent to terrorism. The Canine Training 
and Evaluation Section plays an important role in the 
deployment of these canine teams, focused on furthering TSA's 
mission to secure the Nation's transportation systems.
    Thank you for the opportunity to discuss this important 
issue with you today.
    Mr. Hudson. Thank you, Ms. Lontz.
    The Chairman recognizes Ms. Grover to testify.

  STATEMENT OF JENNIFER A. GROVER, ACTING DIRECTOR, HOMELAND 
     SECURITY AND JUSTICE, GOVERNMENT ACCOUNTABILITY OFFICE

    Ms. Grover. Good afternoon, Chairman Hudson, Ranking Member 
Richmond, and other Members and staff. I am pleased to be here 
today to discuss TSA's implementation and oversight of the 
National Explosives Detection Canine Team Program.
    TSA has deployed over 800 canine teams, including 
conventional canines, which detect explosives in stationary 
objects, and passenger screening canines, known as PSCs, which 
receive additional training to detect and track explosives 
being carried on a person.
    As you noted earlier, in January 2013 GAO reported on 
concerns in three areas. First, TSA's insufficient oversight of 
the canine program overall. Second, lack of evidence on the 
effectiveness of PSCs in the airport environment, and third the 
inconsistent implementation of TSA's policy for risk-based 
deployment of PSCs.
    Since then TSA has taken steps in all three areas. But TSA 
has yet to determine if conventional canines can perform the 
same function as PSCs with the same results and at lower cost.
    Regarding our first finding about weakness in program 
oversight, in 2013 we reported that TSA was collecting data, 
but not analyzing it over time to identify areas working well 
or in need of correction. For example, when we analyzed the TSA 
data we found that some canine teams repeatedly did not meet 
training requirements.
    Also, TSA was not analyzing their covert test results 
beyond a simple pass-and-fail rate. As a result, TSA was 
missing the chance to identify specific search areas or types 
of explosives where the canine teams were more or less 
effective. We recommended that TSA regularly analyze their data 
to better understand canine proficiency and ensure effective 
program operations.
    Now since then TSA has started analyzing canine program 
data in all the areas highlighted in our review. In fact, 3 
months ago they staffed a new office within TSA called the 
Performance Measurements Section, which is focused specifically 
on improving the management and oversight of the canine program 
by analyzing the canine team data.
    Regarding our second finding on effectiveness, in 2013 we 
reported that TSA had started using the PSCs in the sterile 
areas of the airports, before determining their effectiveness 
and before determining where in the airport they would be most 
effectively used.
    We also noted that TSA's testing had raised questions about 
whether conventional canines might outperform the PSCs under 
certain airport testing scenarios, and thus recommended that 
TSA comprehensively assess the effectiveness of the PSC and the 
conventional canine teams.
    In response, TSA took action to assess the effectiveness of 
PSC teams, and they determined that the PSCs are effective when 
working at the airport checkpoints. However, TSA has not 
compared the relative effectiveness of the PSC and the 
conventional canines at the airport checkpoint, which is 
important to ensure that the additional resources that are 
required for the PSC teams are warranted.
    Finally regarding deployment, in 2013 we found that TSA was 
not consistently deploying PSC teams to the highest-risk 
airports. At the time TSA officials told us that they generally 
defer to airport officials regarding PSC deployment, and that 
some airports had concerns about the use of the PSC teams, 
specifically related to the composition of the teams and 
implication should a PSC team detect explosives on a person.
    We recommended that TSA coordinate with airport 
stakeholders to deploy PSC teams to the highest-risk airports. 
TSA agreed, and they have since deployed or committed to deploy 
additional PSC teams to the highest-risk airports.
    As we heard today, TSA has also reported that some airports 
previously opposed to the use of PSCs have accepted them as 
part of the Managed Inclusion program, which allows passengers 
not enrolled in TSA PreCheck to access the PreCheck's screening 
lanes in certain circumstances.
    In conclusion, TSA's new emphasis on data analysis will 
better position the agency to understand how well the program 
is working, and to target program resources accordingly. 
Importantly, a comprehensive assessment of the relative 
effectiveness of PSCs and conventional canines is still 
necessary to provide assurances that the PSC canines are a 
cost-effective screening tool.
    Chairman Hudson, Ranking Member Richmond, this concludes my 
statement. I look forward to your questions.
    [The prepared statement of Ms. Grover follows:]
                 Prepared Statement of Jennifer Grover
                             June 24, 2014
                             gao highlights
    Highlights of GAO-14-695T, a testimony before the Subcommittee on 
Transportation Security, Committee on Homeland Security, House of 
Representatives.
Why GAO Did This Study
    TSA has implemented a multi-layered system composed of people, 
processes, and technology to protect the Nation's transportation 
system. One of TSA's security layers is NEDCTP, composed of over 800 
deployed explosives detection canine teams, including PSC teams trained 
to detect explosives on passengers.
    This testimony addresses the extent to which TSA has: (1) Regularly 
analyzed data to identify program trends and areas working well or in 
need of corrective action, and (2) comprehensively assessed the 
effectiveness of PSCs, and coordinated with stakeholders to deploy PSC 
teams to the highest-risk airports and utilize them as intended. This 
statement is based on a report GAO issued in January 2013 and selected 
updates obtained from October 2013 through June 2014. For the selected 
updates, GAO reviewed TSA documentation, including the results of PSC 
effectiveness assessments, and interviewed agency officials on the 
status of implementing GAO's recommendations.
What GAO Recommends
    GAO is making no new recommendations in this statement.
 explosives detection canines.--tsa has taken steps to analyze canine 
 team data and assess the effectiveness of passenger screening canines
What GAO Found
    In January 2013, GAO reported that the Transportation Security 
Administration (TSA) collected and used key canine program data in 
support of its National Explosives Detection Canine Team Program 
(NEDCTP), but could better analyze these data to identify program 
trends. For example, GAO found that in reviewing short notice 
assessments (covert tests), TSA did not analyze the results beyond the 
pass and fail rates. Therefore, TSA was missing an opportunity to 
determine if there were any search areas or types of explosives in 
which canine teams were more effective compared with others, and what, 
if any, training may be needed to mitigate deficiencies. GAO 
recommended that TSA regularly analyze available data to identify 
program trends and areas that are working well and those in need of 
corrective action to guide program resources and activities. TSA 
concurred and has taken actions that address the intent of our 
recommendation. For example, in the event a team fails a short-notice 
assessment, TSA now requires that canine team supervisors complete an 
analysis of the team's training records to identify an explanation for 
the failure.
    In January 2013, GAO found that TSA began deploying passenger 
screening canine (PSC) teams--teams of canines trained to detect 
explosives being carried or worn on a person--in April 2011 prior to 
determining the teams' operational effectiveness and where within an 
airport PSC teams would be most effectively utilized. GAO recommended 
that TSA expand and complete testing to assess the effectiveness of 
PSCs and conventional canines (trained to detect explosives in 
stationary objects) in all airport areas deemed appropriate prior to 
making additional PSC deployments. This would help: (1) Determine 
whether PSCs are effective at screening passengers, and resource 
expenditures for PSC training are warranted, and (2) inform decisions 
regarding the type of canine team to deploy and where to optimally 
deploy such teams. TSA concurred and has taken steps to address the 
recommendation, but additional action is needed. Specifically, TSA 
launched a PSC training and assessment initiative and determined PSCs 
to be most effective when working at the airport checkpoint, but TSA 
does not plan to conduct a comparison of PSC teams with conventional 
canine teams as GAO recommended. In January 2013, GAO also found that 
TSA's 2012 Strategic Framework calls for the deployment of PSC teams 
based on risk; however, airport stakeholder concerns related to the 
composition and capabilities of PSC teams resulted in the teams not 
being deployed to the highest-risk airports. GAO recommended that if 
PSCs are determined to provide an enhanced security benefit compared 
with conventional canine teams, TSA should coordinate with airport 
stakeholders to deploy future PSC teams to the highest-risk airports. 
TSA concurred and has taken steps to address the recommendation. 
Specifically, the PSC teams for which TSA had funding and not already 
deployed to a specific airport at the time GAO's report was issued have 
been deployed to, or allocated to, the highest-risk airports.
    Chairman Hudson, Ranking Member Richmond, and Members of the 
subcommittee: I appreciate the opportunity to discuss our work on the 
Transportation Security Administration's (TSA) National Explosives 
Detection Canine Team Program (NEDCTP). Within the Department of 
Homeland Security (DHS), TSA is the primary Federal agency responsible 
for security of the Nation's transportation system. Since the terrorist 
attacks of September 11, 2001, TSA has implemented a multi-layered 
system of security composed of people, processes, and technology to 
protect the transportation system. One of TSA's security layers is 
NEDCTP, composed of over 800 explosives detection canine teams--a 
canine paired with a handler--aimed at deterring and detecting the use 
of explosive devices in the U.S. transportation system.\1\
---------------------------------------------------------------------------
    \1\ NEDCTP is located within TSA's Office of Security Operations.
---------------------------------------------------------------------------
    Through NEDCTP, TSA trains, deploys, and certifies explosives 
detection canine teams. The program began under the Federal Aviation 
Administration in 1972 as a partnership with State and local law 
enforcement agencies with jurisdiction over airports by pairing law 
enforcement officer (LEO) handlers with conventional canines trained to 
detect explosives in objects (e.g., baggage and vehicles). In 
accordance with the Aviation and Transportation Security Act, which 
established TSA, the transfer of the canine program from the Federal 
Aviation Administration to TSA was accomplished in March 2003.\2\ TSA 
subsequently expanded the program beyond airports to other 
transportation modes, including mass transit, and in January 2008, 
further expanded the program to include civilian transportation 
security inspector (TSI) canine teams responsible for screening air 
cargo. In 2011, TSA again expanded the program by deploying TSI 
handlers to airports with passenger screening canines (PSC)--
conventional canines also trained to detect explosives being carried by 
or worn on a person.
---------------------------------------------------------------------------
    \2\ Enacted in November 2001, the Aviation and Transportation 
Security Act established, within the Department of Transportation, TSA 
as the agency responsible for securing the Nation's transportation 
systems. See Pub. L. No. 107-71,  101(a), 115 Stat. 597 (2001). The 
Homeland Security Act of 2002 subsequently transferred TSA to the 
newly-established Department of Homeland Security. See Pub. L. No. 107-
296,  403, 116 Stat. 2135, 2178 (2002).
---------------------------------------------------------------------------
    My testimony today addresses the extent to which TSA has: (1) 
Regularly analyzed data to identify program trends and areas working 
well or in need of corrective action; and (2) comprehensively assessed 
the effectiveness of PSCs, and coordinated with stakeholders to deploy 
PSC teams to the highest-risk airports and utilize them as intended. 
This statement is based on our January 2013 report and includes 
selected updates on the status of TSA's efforts to implement the 
recommendations in that report.\3\ The report cited in this statement 
provides detailed information on our scope and methodology. To update 
our work, we obtained related documentation from TSA from October 2013 
through June 2014, including reports used by NEDCTP to monitor canine 
team training minute requirements, results of PSC effectiveness 
assessments, and PSC deployment schedules. We also interviewed agency 
officials in June 2014 on the progress made by TSA to implement the 
recommendations in our January 2013 report. The work upon which this 
statement is based was conducted in accordance with generally accepted 
Government auditing standards. Those standards require that we plan and 
perform the audit to obtain sufficient, appropriate evidence to provide 
a reasonable basis for our findings and conclusions based on our audit 
objectives. We believe that the evidence obtained provides a reasonable 
basis for our findings and conclusions based on our audit objectives.
---------------------------------------------------------------------------
    \3\ GAO, TSA Explosives Detection Canine Program: Actions Needed to 
Analyze Data and Ensure Canine Teams Are Effectively Utilized, GAO-13-
239 (Washington, DC: Jan. 31, 2013). This is a public version of a 
sensitive report that we issued in December 2012. Information TSA 
deemed Sensitive Security Information was redacted.
---------------------------------------------------------------------------
                               background
    NEDCTP's mission is to deter and detect the introduction of 
explosive devices into the transportation system. As of June 2014, 
NEDCTP has deployed 802 of 985 canine teams for which it is able to 
fund across the transportation system.\4\ Table 1 shows the number of 
canine teams by type for which funding is available, as well as 
describes their roles, responsibilities, and costs to TSA. There are 
four types of LEO teams: Aviation, mass transit, maritime, and 
multimodal, and three types of TSI teams: Air cargo, multimodal, and 
PSC.
---------------------------------------------------------------------------
    \4\ NEDCTP has not deployed the remaining 183 canine teams.

TABLE 1.--TOTAL NUMBER AND FEDERAL COSTS OF TRANSPORTATION SECURITY ADMINISTRATION (TSA) CANINE TEAMS BY TYPE OF
                                                      TEAM
----------------------------------------------------------------------------------------------------------------
                                        Number of
                                        Teams For
         Type of Canine Team          Which Funding    Description of Roles and    TSA Start-up     TSA Annual
                                       Is Available        Responsibilities          Costs \2\       Costs \2\
                                           \1\
----------------------------------------------------------------------------------------------------------------
Law enforcement officer (LEO):                511    Patrol airport terminals,           $94,000         $63,000
 aviation.                                            including ticket counters,
                                                      curbside areas, and
                                                      secured areas; respond to
                                                      calls to search unattended
                                                      items, such as vehicles
                                                      and baggage; screen air
                                                      cargo; and serve as
                                                      general deterrents to
                                                      would-be terrorists or
                                                      criminals.
LEO: mass transit...................          131    Patrol mass transit                 $84,000         $53,000
                                                      terminals; search
                                                      platforms, rail cars, and
                                                      buses; respond to calls to
                                                      search unattended items,
                                                      such as baggage; and serve
                                                      as general deterrents to
                                                      would-be terrorists or
                                                      criminals.
LEO: maritime.......................            6    Conduct similar activities          $84,000         $53,000
                                                      as LEO mass transit teams
                                                      at ferry terminals.
LEO: multimodal.....................           27    Patrol and search                   $94,000         $53,000
                                                      transportation modes in
                                                      their geographic area
                                                      (e.g., aviation, mass
                                                      transit, and maritime),
                                                      and screen air cargo.
Transportation security inspector             120    Primarily screen air cargo.        $218,000        $159,000
 (TSI): air cargo.
TSI: multimodal.....................           46    Patrol and search                  $218,000        $159,000
                                                      transportation modes in
                                                      their geographic area
                                                      (e.g., aviation, mass
                                                      transit, or maritime), and
                                                      screen air cargo.
TSI: Passenger Screening Canines....          144    Search for explosives odor         $237,000        $164,000
                                                      on passengers in airport
                                                      terminals.
                                     ---------------------------------------------------------------------------
      Total.........................         985
----------------------------------------------------------------------------------------------------------------
Source: GAO analysis of TSA data. GAO-14-695T
\1\ The number of teams for which funding is available is for fiscal year 2014.
\2\ The cost data are as of June 2014, and have been rounded to the nearest thousand. Start-up costs reflect the
  costs incurred by TSA during the first year the canine team is deployed. Annual costs include the operations
  and maintenance costs incurred by TSA to keep canine teams deployed after their first year in the program.

    TSA's start-up costs for LEO teams include the costs of training 
the canine and handler, and providing the handler's agency a 
stipend.\5\ The annual costs to TSA for LEO teams reflect the amount of 
the stipend.\6\ TSA's start-up and annual costs for TSI canine teams 
are greater than those for LEO teams, because TSI handlers are TSA 
employees, so the costs include the handlers' pay and benefits, service 
vehicles, and cell phones, among other things. PSC teams come at an 
increased cost to TSA compared with other TSI teams because of the 
additional 2 weeks of training and costs associated with providing 
decoys (i.e., persons pretending to be passengers who walk around the 
airport with explosive training aids). Of amounts appropriated in 
fiscal year 2014, TSA received a total of approximately $126.3 million 
for its canine program.\7\ This amount includes an additional $1.25 
million above TSA's fiscal year 2014 budget request to support not 
fewer than 10 more canine teams for the air cargo and aviation 
regulation environments.\8\ In its fiscal year 2015 budget request, TSA 
is requesting approximately $127.4 million, a $1 million increase.\9\
---------------------------------------------------------------------------
    \5\ The annual stipend is the Federal cost share TSA provides per 
LEO team pursuant to a cooperative agreement between TSA and the LEO 
team's agency (State or local). Certain items and services are 
reimbursable by TSA through the stipend, including canine food and 
veterinary care. The LEO team's agency is responsible for any costs 
incurred greater than the amount covered by the stipend.
    \6\ The LEO aviation teams' stipends are $10,000 more than those 
for other LEO teams because the teams are required to spend 25 percent 
of their time screening air cargo, per the cooperative agreement with 
TSA.
    \7\ For fiscal year 2014, TSA funds NEDCTP through three TSA 
activities: Aviation regulation and other enforcement (aviation), 
surface transportation security inspectors and canines (surface), and 
air cargo.
    \8\ See, e.g., Explanatory Statement accompanying Pub. L. No. 113-
76, Div. F, 128 Stat. 5, 247 (2014), at 32.
    \9\ In its fiscal year 2015 budget request, TSA proposes to 
consolidate all canine assets, including PSC teams and mass transit 
teams, within its Aviation Regulation and Other Enforcement account to 
allow TSA maximum flexibility to utilize the teams in any 
transportation environment as needed in response to changes in 
intelligence or capability requirements. 

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

    Canines undergo 10 weeks of explosives detection training before 
being paired with a handler at TSA's Canine Training and Evaluation 
Section (CTES), located at Lackland Air Force Base. Conventional canine 
handlers attend a 10-week training course, and PSC handlers attend a 
12-week training course.\10\ Canines are paired with a LEO or TSI 
handler during their training course. After canine teams complete this 
training, and obtain initial certification, they acclimate to their 
home operating environment for a 30-day period. Upon completion of the 
acclimation period, CTES conducts a 3-day operational transitional 
assessment to ensure canine teams are not experiencing any performance 
challenges in their home operating environment. After initial 
certification, canine teams are evaluated on an annual basis to 
maintain certification. During the conventional explosives detection 
evaluation, canine teams must demonstrate their ability to detect all 
the explosive training aids the canines were trained to detect in five 
search areas.\11\ The five search areas are randomly selected among all 
the possible areas, but according to CTES, include the area that is 
most relevant to the type of canine team (e.g., teams assigned to 
airports will be evaluated in areas such as aircraft and cargo). Canine 
teams must find a certain percentage of the explosive training aids to 
pass their annual evaluation. In addition, a specified number of 
nonproductive responses (NPR)--when a canine responds to a location 
where no explosives odor is present--are allowed to pass an evaluation 
and maintain certification. After passing the conventional evaluation, 
PSC teams are required to undergo an additional annual evaluation that 
includes detecting explosives on a person, or being carried by a 
person. PSC teams are tested in different locations within the sterile 
areas and checkpoints of an airport.\12\ A certain number of persons 
must be detected, and a specified number of NPRs are allowed for PSC 
certification.
---------------------------------------------------------------------------
    \10\ The majority of canine teams are trained by TSA's CTES. 
However, according to TSA officials, because of resource constraints, 
TSA contracted with Strijder Group K9, which subcontracted to Auburn 
University's Canine Detection Training Center to train some of the PSC 
teams.
    \11\ An explosive training aid is any explosive used to test and 
train a canine in explosives detection.
    \12\ The sterile area of an airport is the portion in an airport, 
defined in the airport's security program, that provides passengers 
access to boarding aircraft and to which the access generally is 
controlled by TSA through the screening of persons and property. See 49 
C.F.R.  1540.5.
---------------------------------------------------------------------------
  tsa has taken steps to analyze canine team data to identify program 
                                 trends
    Since our January 2013 report, TSA has taken steps to analyze key 
data on the performance of its canine teams to better identify program 
trends, as we recommended. In January 2013, we reported that TSA 
collected and used key canine program data in its Canine Website System 
(CWS), a central management database, but it could better analyze these 
data to identify program trends. Table 2 highlights some of the key 
data elements included in the CWS.

   TABLE 2.--EXAMPLES OF DATA ELEMENTS RECORDED IN THE CANINE WEBSITE
                              SYSTEM (CWS)
------------------------------------------------------------------------
             Data Element                         Description
------------------------------------------------------------------------
Training minutes.....................  Canine handlers record time spent
                                        conducting training to ensure
                                        canine teams maintain
                                        proficiency in detecting
                                        explosives odor.
                                       The Transportation Security
                                        Administration (TSA) requires
                                        canine teams to conduct a
                                        minimum of 240 proficiency
                                        training minutes every 4 weeks
                                        (month) and for handlers to
                                        record training minutes in the
                                        CWS within 48 hours.
Utilization minutes..................  Law enforcement officer teams
                                        record time spent patrolling
                                        transportation terminals,
                                        searching for explosives odor in
                                        rail cars and buses, for
                                        example, and screening air
                                        cargo.
                                       Transportation security inspector
                                        teams record time spent
                                        screening cargo, which is their
                                        primary responsibility.
                                       TSA requires canine handlers to
                                        record utilization minutes in
                                        CWS within 48 hours.
Certification rates..................  Canine Training and Evaluation
                                        Section evaluators record the
                                        results (certified \1\ or
                                        decertified \2\) of annual
                                        canine team evaluations.
Short-notice assessments.............  Field canine coordinators (FCC)
                                        administer short-notice
                                        assessments--covert tests to
                                        assess canine teams' level of
                                        operational effectiveness--on
                                        two canine teams within each
                                        participating agency they
                                        oversee each year.
                                       FCCs are required to document
                                        results of short-notice
                                        assessments, and handlers are
                                        required to record results, in
                                        CWS.
Final canine responses...............  Canine handlers record final
                                        canine responses--instances when
                                        a canine sits, indicating to its
                                        handler that it detects
                                        explosives odor.
                                       Canine handlers are instructed to
                                        document final canine responses
                                        in CWS and submit swab samples
                                        to TSA's Canine Explosives Unit
                                        to be analyzed for explosives
                                        odor.
------------------------------------------------------------------------
Source: GAO analysis of TSA documentation. GAO-14-695T
\1\ Certified teams are canine teams that passed their annual evaluation
  and are certified to search for explosives.
\2\ Decertified teams are canine teams that failed their annual
  evaluation and are limited to training and providing mobile
  deterrence.

    In January 2013, we found that NEDCTP was using CWS data to track 
and monitor canine teams' performance. Specifically, field canine 
coordinators (FCC) reviewed CWS data to determine how many training and 
utilization minutes canine teams conducted on a monthly basis. NEDCTP 
management used CWS data to determine, for example, how many canine 
teams were certified in detecting explosive odors, as well as the 
number of teams that passed short-notice assessments. However, in our 
January 2013 report, we also found that TSA had not fully analyzed the 
performance data it collected in CWS to identify program trends and 
areas that were working well or in need of corrective action. For 
example:
  <bullet> Training minutes.--TSA tracked the number of training 
        minutes canine teams conducted on a monthly basis, as well as 
        the types of explosives and search areas used when training, to 
        ensure teams maintained their proficiency in detecting 
        explosive training aids. However, we found that TSA did not 
        analyze training minute data over time (from month to month) 
        and therefore was unable to determine trends related to canine 
        teams' compliance with the requirement. On the basis of our 
        analysis of TSA's data, we determined that some canine teams 
        were repeatedly not in compliance with TSA's 240-minute 
        training requirement, in some cases for 6 months or more in a 
        1-year time period.
  <bullet> Utilization minutes.--We found that TSA collected and 
        analyzed data monthly on the amount of cargo TSI air cargo 
        canine teams screened in accordance with the agency's 
        requirement. However, it was unclear how the agency used this 
        information to identify trends to guide longer-term future 
        program efforts and activities, since our analysis of TSA's 
        cargo screening data from September 2011 through July 2012 
        showed that TSI air cargo teams Nation-wide generally exceeded 
        their monthly requirement. We concluded that TSA could increase 
        the percentage of cargo it required TSI canine teams to screen.
  <bullet> Certification rates.--We found that TSA tracked the number 
        of certified and decertified canine teams, but was unable to 
        analyze these data to identify trends in certification rates 
        because these data were not consistently tracked and recorded 
        prior to 2011. Specifically, we could not determine what, if 
        any, variances existed in the certification rates among LEO and 
        TSI teams over time because CTES reported it was unable to 
        provide certification rates by type of canine team for calendar 
        years 2008 through 2010. According to CTES, the agency 
        recognized the deficiency and was in the process of 
        implementing procedures to address data collection, tracking, 
        and record-keeping issues.
  <bullet> Short-notice assessments (covert tests).--We found that when 
        TSA was performing short-notice assessments (prior to their 
        suspension in May 2012), it was not analyzing the results 
        beyond the pass and fail rates.\13\ We concluded that without 
        conducting the assessments and analyzing the results of these 
        tests to determine if there were any search areas or type of 
        explosives in which canine teams were more effective compared 
        with others, and what, if any, training may have been needed to 
        mitigate deficiencies, TSA was missing an opportunity to fully 
        utilize the results.
---------------------------------------------------------------------------
    \13\ TSA suspended the short-notice assessments because of FCC 
staffing shortages.
---------------------------------------------------------------------------
  <bullet> Final canine responses.--Our analysis of final canine 
        responses and data on corresponding swab samples used to verify 
        the presence of explosives odor revealed that canine teams were 
        not submitting swab samples to NEDCTP's Canine Explosives Unit 
        (CEU). Specifically, we determined that the number of swab 
        samples sent by canine handlers to CEU for scientific review 
        was far lower than the number of final canine responses 
        recorded in CWS. We concluded that without the swab samples, 
        TSA was not able to more accurately determine the extent to 
        which canine teams were effectively detecting explosive 
        materials in real-world scenarios.
    In January 2013, we recommended that TSA regularly analyze 
available data to identify program trends and areas that are working 
well and those in need of corrective action to guide program resources 
and activities. These analyses could include, but not be limited to, 
analyzing and documenting trends in proficiency training minutes, 
canine utilization, results of short-notice assessments and final 
canine responses, performance differences between LEO and TSI canine 
teams, as well as an assessment of the optimum location and number of 
canine teams that should be deployed to secure the U.S. transportation 
system. TSA concurred with our recommendation and has taken actions to 
address it. Specifically, TSA is monitoring canine teams' training 
minutes over time by producing annual reports. TSA also reinstated 
short notice assessments in July 2013, and in the event a team fails, 
the FCC completes a report that includes an analysis of the team's 
training records to identify an explanation for the failure. In April 
2013, TSA reminded canine handlers of the requirement to submit swab 
samples of their canines' final responses, and reported that the number 
of samples submitted that same month, increased by 450 percent, when 
compared with sample submissions in April 2012. CEU is producing 
reports on the results of its analysis of the swab samples for the 
presence of explosives odor. In June 2014, TSA officials told us that 
in March 2014, NEDCTP stood up a new office, known as the Performance 
Measurement Section, to perform analyses of canine team data. We 
believe that these actions address the intent of our recommendation and 
could better position TSA to identify program trends to better target 
resources and activities based on what is working well and what may be 
in need of corrective action.
  tsa has conducted additional psc team effectiveness assessments and 
 deployed some teams to highest-risk airports, but additional actions 
                               are needed
TSA Has Conducted Additional PSC Team Effectiveness Assessments, but 
        Has Not Compared PSC Teams With Conventional Canine Teams
    In our January 2013 report, we found that TSA began deploying PSC 
teams in April 2011 prior to determining the teams' operational 
effectiveness. However, in June 2012, the DHS Science and Technology 
Directorate (S&T) and TSA began conducting effectiveness assessments to 
help demonstrate the effectiveness of PSC teams.\14\ On the basis of 
these assessments, DHS S&T and TSA's NEDCTP recommended that the 
assessment team conduct additional testing and that additional training 
and guidance be provided to canine teams. See the hyperlink in the note 
for figure 2 for videos of training exercises at one airport showing 
instances when PSC teams detected, and failed to detect, explosives 
odor. In January 2013, we concluded that TSA could have benefited from 
completing effectiveness assessments of PSCs before deploying them on a 
Nation-wide basis to determine whether they are an effective method of 
screening passengers in the U.S. airport environment.
---------------------------------------------------------------------------
    \14\ S&T is the primary research and development arm of DHS and 
manages science and technology research for the Department's 
components, such as TSA. 

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

    We also reported in January 2013 that TSA had not completed an 
assessment to determine where within the airport PSC teams would be 
most effectively utilized, but rather TSA leadership focused on 
initially deploying PSC teams to a single location within the airport--
the sterile area--because it thought it would be the best way to foster 
stakeholders', specifically airport operators' and law enforcement 
agencies', acceptance of the teams. Stakeholders were resistant to the 
deployment of PSC teams because they have civilian handlers, and TSA's 
response resolution protocols do not require the teams to be 
accompanied by a law enforcement officer.\15\ According to TSA's 
Assistant Administrator for the Office of Security Operations, to 
alleviate airport stakeholders' concerns regarding TSA's response 
resolution protocols, the agency initially deployed PSC teams to the 
sterile areas, thereby enabling TSA to gather data on the value of PSC 
teams in the airport environment while reducing the likelihood of a 
final response from a PSC, since an individual has already passed 
through several layers of screening when entering the sterile area. 
However, aviation stakeholders we interviewed raised concerns about 
this deployment strategy, stating that PSC teams would be more 
effectively utilized in non-sterile areas of the airport, such as 
curbside or in the lobby areas. TSA subsequently deployed PSC teams to 
the passenger screening checkpoints. However, DHS S&T did not plan to 
assess the effectiveness of PSCs on the public side, beyond the 
checkpoint, since TSA was not planning to deploy PSCs to the public 
side of the airport when DHS S&T designed its test plan. In January 
2013, we concluded that comprehensive effectiveness assessments that 
include a comparison of PSC teams in both the sterile and public areas 
of the airport could help TSA determine if it is beneficial to deploy 
PSCs to the public side of airports, in addition to or in lieu of the 
sterile area and checkpoint.
---------------------------------------------------------------------------
    \15\ Unlike LEOs, TSIs (PSC handlers) are unarmed civilians with no 
authority to take law enforcement action (e.g., arrest or detain). The 
response resolution protocols require the handler to be accompanied by 
two additional personnel that may, but not always, include a law 
enforcement officer.
---------------------------------------------------------------------------
    During the June 2012 assessment of PSC teams' effectiveness, TSA 
conducted one of the search exercises with three conventional canine 
teams. Although this assessment was not intended to be included as part 
of DHS S&T's and TSA's formal assessment of PSC effectiveness, the 
results of the assessment suggested, and TSA officials and DHS S&T's 
Canine Explosives Detection Project Manager agreed, that a systematic 
assessment of PSCs with conventional canines could provide TSA with 
information to determine whether PSCs provide an enhanced security 
benefit compared with conventional LEO aviation canine teams that have 
already been deployed to airport terminals. In January 2013, we 
concluded that an assessment would help clarify whether additional 
investments for PSC training are warranted. We also concluded that 
since PSC teams are trained in both conventional and passenger 
screening methods, TSA could decide to convert existing PSC teams to 
conventional canine teams, thereby limiting the additional resource 
investments associated with training and maintaining the new PSC teams.
    We recommended that TSA expand and complete testing, in conjunction 
with DHS S&T, to assess the effectiveness of PSCs and conventional 
canines in all airport areas deemed appropriate prior to making 
additional PSC deployments to help: (1) Determine whether PSCs are 
effective at screening passengers, and resource expenditures for PSC 
training are warranted, and (2) inform decisions regarding the type of 
canine team to deploy and where to optimally deploy such teams within 
airports. TSA concurred and has taken some actions to address our 
recommendation, but further action is needed to fully address it. 
Specifically, in June 2014, TSA reported that through its PSC Focused 
Training and Assessment Initiative, a two-cycle assessment to establish 
airport-specific optimal working areas, assess team performance, and 
train teams on best practices, it had assessed PSC teams deployed to 27 
airports cumulating in a total of 1,048 tests. On the basis of these 
tests, TSA determined that PSC teams are effective and should be 
deployed at the checkpoint queue. In February 2014, TSA launched a 
third PSC assessment cycle to determine how PSCs' effectiveness changes 
over time in order to determine their optimal duration time when 
working the checkpoint queue (i.e., how many minutes they can work and 
continue to be effective).
    Although TSA has taken steps to determine whether PSC teams are 
effective and where in the airport environment to optimally deploy such 
teams, as of June 2014, TSA has not compared the effectiveness of PSCs 
and conventional canines in order to determine if the greater cost of 
training canines in the passenger screening method is warranted. 
According to TSA, the agency does not plan to include conventional 
canine teams in PSC assessments because conventional canines have not 
been through the process used with PSC canines to assess their 
temperament and behavior when working in proximity to people. While we 
recognize TSA's position that half of deployed conventional canines are 
of a breed not accepted for use in the PSC program, other conventional 
canines are suitable breeds, and have been paired with LEO aviation 
handlers working in proximity with people since they patrol airport 
terminals, including ticket counters and curbside areas. We continue to 
believe that TSA should conduct an assessment to determine whether 
conventional canines are as effective detecting explosives odor on 
passengers when compared with PSC teams working in the checkpoint 
queue. As we reported, since PSC teams are trained in both conventional 
and passenger screening methods, TSA could decide to convert existing 
PSC teams to conventional canine teams, thereby limiting the additional 
resource investments associated with training and maintaining PSC 
teams.
TSA Deployed Some PSC Teams to Highest-Risk Airports
    In our January 2013 report, we found that TSA's 2012 Strategic 
Framework calls for the deployment of PSC teams based on risk; however, 
airport stakeholder concerns about the appropriateness of TSA's 
response resolution protocols for these teams resulted in PSC teams not 
being deployed to the highest-risk airports. TSA officials stated that 
PSC teams were not deployed to the highest-risk airports for various 
reasons, including concerns from an airport law enforcement association 
about TSA's decision to deploy PSC teams with civilian TSI handlers and 
the appropriateness of TSA's response resolution protocols. These 
protocols require the canine handler to be accompanied by two 
additional personnel that may, but not always, include a law 
enforcement officer. According to representatives from an airport law 
enforcement association, these protocols are not appropriate for a 
suicide bombing attempt requiring an immediate law enforcement 
response. TSA's decision to deploy PSC teams only to airports where 
they would be willingly accepted by stakeholders resulted in PSC teams 
not being deployed to the highest-risk airports on its high-risk list. 
Moreover, PSC teams that were deployed to high-risk airports, 
specifically two airports we visited, were not being used for passenger 
screening because TSA and the local law enforcement agencies had not 
reached agreement on the PSC response resolution protocols.
    We recommended that if PSCs are determined to provide an enhanced 
security benefit, TSA should coordinate with airport stakeholders to 
deploy future PSC teams to the highest-risk airports, and ensure that 
deployed PSC teams are utilized as intended, consistent with its 
statutory authority to provide for the screening of passengers and 
their property. TSA concurred with our recommendation, and has taken 
action to address it. Specifically, as of June 2014, the PSC teams for 
which TSA had funding and not already deployed to a specific airport at 
the time our report was issued have been deployed to, or allocated to, 
the highest-risk airports. According to TSA, it was successful in 
deploying PSC teams to airports where they were previously declined by 
aviation stakeholders for various reasons. For example, TSA officials 
explained that stakeholders have realized that PSCs are an effective 
means for detecting explosives odor, and no checkpoints have closed 
because of a nonproductive response. PSCs also help reduce wait times 
at airport checkpoints because PSC teams are one method by which TSA 
can operate Managed Inclusion--a tool that allows passengers who have 
not, for example, enrolled in TSA PreCheck<SUP>TM</SUP> to access to 
PreCheck<SUP>TM</SUP> screening lanes.\16\ According to TSA, PSC teams 
provide an added layer of security, making it possible for TSA to 
provide expedited screening to passengers who have not enrolled in TSA 
PreCheck<SUP>TM</SUP> and therefore have not had a background 
check.\17\ In November 2013, TSA also reported it was making progress 
in working with stakeholders to allow PSC teams to work at checkpoints 
at airports where PSC teams were not previously performing passenger 
screening, but rather were training and screening air cargo. In June 
2014, TSA officials reported that of all the airports where PSC teams 
had been deployed, all but one airport agreed to allow TSA to conduct 
screening of individuals at passenger screening checkpoint queues. We 
believe that these actions address the intent of our recommendation, 
contingent upon TSA comparing PSC teams with conventional canine teams.
---------------------------------------------------------------------------
    \16\ Through the TSA PreCheck<SUP>TM</SUP> program, passengers who 
experience expedited screening may not have to remove their shoes; may 
leave their liquids and gels and laptops in carry-on baggage, and are 
not required to divest light outerwear, jackets, or belts when passing 
through screening checkpoints. We have an on-going review of the TSA 
PreCheck<SUP>TM</SUP> program, including Managed Inclusion, and 
anticipate issuing a report in September 2014.
    \17\ For PreCheck<SUP>TM</SUP> applicants, TSA conducts a 
background check that includes checks against law enforcement, 
immigration, and intelligence databases, including a fingerprint-based 
criminal history records check conducted through the Federal Bureau of 
Investigation. The results are used by TSA to decide if an individual 
poses a sufficiently low-risk to transportation or National security to 
participate in PreCheck<SUP>TM</SUP>.
---------------------------------------------------------------------------
    Chairman Hudson, Ranking Member Richmond, and Members of the 
subcommittee, this completes my prepared statement. I would be happy to 
respond to any questions you may have at this time.

    Mr. Hudson. Thank you, Ms. Grover.
    The Chairman recognizes Mr. Connell to testify.

 STATEMENT OF CHRIS CONNELL, PRESIDENT, COMMODITY FORWARDERS, 
  INC., TESTIFYING ON BEHALF OF THE AIRFORWARDERS ASSOCIATION

    Mr. Connell. Chairman Hudson, Ranking Member Richmond, 
Members of the committee, thank you for hearing us on this 
important hearing.
    My name is Chris Connell, president of Commodity 
Forwarders. We are a perishable specialist in the freight 
forwarding industry. I also serve as an elected board member 
for the AFA, the Airforwarders Association.
    As you have heard, the AFA represents over 360 members 
ranging from small to large businesses, employing upwards of 
about 10,000 employees and subcontractors. The business models 
vary from domestic to world-wide operations, from air to ocean 
and from truck to rail.
    I am helping facilitate exports, imports, and domestic 
moves of many products. Our members own aircraft. They work 
with scheduled airlines. They run aircraft cargo airplanes. Our 
members are key to global trade.
    Safety and security is the core to our members' 
livelihoods. Air forwarders have worked tirelessly with 
Government, customers, partners to better source the global 
supply chain. We work due diligently on to comply with the 100 
percent screening mandate from the September 11 findings.
    We currently are also working with U.S. Customs and Border 
Patrol, TSA, and on the Air Cargo Advance Screening Pilots to 
move forward. We are highly aware that the threat to the 
aviation industry remains high, and we are determined to do our 
part to ensure safety.
    Canines have long proven to be an effective security tool 
for TSA and many of the agencies. In the wake of the 9/11 
Commission recommendations that was passed in 2007, TSA created 
the Certified Cargo Screening Program, CCSP, which permitted 
certified freight companies to screen cargo away from the 
airport.
    This legislation allowed screening to be performed through 
a variety of methods, physical inspection, X-ray, explosive 
trace detection technology. Using specifically-trained dogs was 
deemed to be an acceptable way to screen cargo, but was 
restricted for the CCSP program.
    AFP believes that privatized canines can be a potentially 
valuable part to a multiple layered approach, another tool in 
the toolbox, if you will, for CCSFs to perform their process. 
Privatized canines are not the magic bullet when it comes to 
screening. There is really no magic bullet at this point.
    Our belief is that the industry--our belief as an industry 
association is that the best route to the highest level of 
safety and security is through the multi-layered risk-based 
approach that uses the best possible tools available. Only the 
sums of those parts equal a more secure supply chain.
    The TSA has approved the use of dogs, and only on airports. 
TSA-owned canines are limited in number busier airport 
passenger terminals, and shared with airline cargo facilities 
with tarmac access. For hundreds of forwarders and shippers who 
operate off-airport CCSFs, there really is no option to use 
canines at their premises.
    The issue as we see it is whether authorizing private 
companies to provide dogs to conduct security screening at 
Government-certified freight forwarding facilities, assuming 
those dogs are trained and certified to Government standards, 
is a good thing to do moving forward. We believe that is 
something the TSA should move forward with hand-in-hand with 
industry.
    Just this month the AFA surveyed our members and found that 
three-quarters of our respondents, half of them which are 
CCSFs, say that it would strongly consider using dogs provided 
by private companies if they were given the option. Companies 
such as Atlas, DHS, FedEx, UPS, TNT are highly supportive of 
having the option to use privatized canines to screen cargo.
    In 2013 my Los Angeles facility screened over 6.7 million 
packages through a combination of ETD, X-ray, and metal 
detection. Due to the density of produce, seafood, and 
proteins, the majority of the screening, if not all, was done 
by at the box level.
    We have not seen an economically feasible technology to 
date to screen high-density cargo by the skid. It seems to be 
nothing in the pipeline. That is why we would like TSA to 
consider using dogs for the cargo CCSF program.
    The products my customers ship are items that families eat 
every day and need cool chain. Food safety and other areas for 
efficient transportation methods are key to not just food 
safety, but also the security and the efficiencies of the 
businesses we run.
    CFI spent $1.6 million on screeners, loaders, and forklift 
drivers to screen those 6.7 million cases. Now keep in mind, 
that is just in our Los Angeles facility alone, for a small to 
medium-sized forwarder.
    Our customers range from Costco, Wal-Mart, Tyson, Cisco, 
and many other small to medium-sized businesses. They are 
looking for the least traumatic screening method as possible, 
not just to control costs, but also to maintain the best 
quality of food we ship and people eat.
    Time is money in our business. Accordingly, we are highly 
interested in any solution that can help us expedite the 
screening process, move our perishables more quickly through 
the supply chain and still provide the utmost in food safety 
and security. We think dogs can really help us do that, again, 
not as a magic bullet, but as an important option to give us 
more tools in the toolbox, so to speak.
    We believe that companies like a CFI have saved--can save 
over a $1 million a year at a single facility if we access to 
third-party solution deploying canines. Of course our customers 
would highly appreciate the time, savings, and the solutions to 
help achieve this.
    It is my understanding that in 2011 the TSA ran a pilot 
program to test the feasibility of implementing a third-party 
explosive detection canine program that would make explosive 
detection dogs available to screen all cargo before it goes to 
a passenger or a cargo aircraft. We also understand that while 
those results were mixed, but offered encouragement that 
private-sector canines could meet TSA standards.
    I would hope that the lessons learned by the TSA and the 
private canine companies to jointly build testing criteria for 
testing not just the private but also the Government dogs as a 
benchmark would be useful in the next phase.
    Given the track record of canines in cargo screening, 
proceeding with the private-sector option with solutions fully 
regulated, certified, and monitored by TSA would square with 
the screening approaches under CCSF, such as in-house X-ray, 
ETD where the Government does not develop the technology and 
solutions in-house, rather relies on private sector to do the 
work and puts it through a rigid testing before authorizing it 
for use.
    We think this approach would work well for using dogs just 
as it did for X-ray and other technologies in the pipeline.
    In conclusion, we urge that the TSA gets funding to help 
finalize its efforts to develop a certification program for 
private companies to enable them to use their own canines, 
certified to TSA standards, to meet Federal air cargo screening 
mandates through the CCSF program. Leveraging private-sector 
resources will introduce much-needed additional canines to the 
cargo screening system.
    The Aviation Security Advisory Committee, ASAC, comprised 
of stakeholders, including the Airforwarders Association, as 
diverse as the Association of Flight Attendants to the Pan Am 
103 survivors, have endorsed the concept of private screening 
through canines. It is our hope that this hearing will spur 
what appears to be a near-universal support for private 
canines.
    Thank you for your opportunity. I will be happy to answer 
questions as you deem fit.
    [The prepared statement of Mr. Connell follows:]
                  Prepared Statement of Chris Connell
                             June 24, 2014
    Chairman Hudson, Ranking Member Richmond, and Members of the 
committee, thank you for holding this important hearing and for 
inviting me to testify.
    My name is Chris Connell and I am the president of Commodity 
Forwarders, a freight forwarding company specializing in perishable 
products. We are headquartered in Los Angeles and we operate both 
domestically and internationally. Today I am testifying on behalf of 
the Airforwarders Association (AfA), on whose board I sit.
    The Airforwarders Association represents 360 member companies that 
together employ tens of thousands of employees and contractors. AfA 
members range from small businesses to large companies with thousands 
of employees, and with business models varying from domestic to world-
wide operations. Some of our members operate their own aircraft, but 
most use scheduled airlines and operators of cargo planes to move the 
freight they are handling.
    Accordingly, we move our clients' cargo throughout the supply chain 
in the most timely and cost-efficient manner, whether it is carried on 
aircraft, truck, rail, or ship. As many of our members operate 
internationally, we are a key cog in global trade and logistics.
                            cargo screening
    Safety and security are at the core of our members' livelihoods. 
Since our Nation and our aviation industry came under attack on 
September 11, 2001, air freight forwarders have worked tirelessly with 
our Government, our customers, and our airline partners to better 
secure the global supply chain. AfA members have worked diligently to 
comply with the 100% cargo screening mandate and we are currently 
working with U.S. Customs and Border Protection (CBP) and the 
Transportation Security Administration (TSA) on the Air Cargo Advanced 
Screening (ACAS) pilots. We are highly aware that the threat to the 
aviation industry remains high, and we are determined to do our part to 
ensure safety.
    Given the topic for today's hearing, I will say, in the spirit of 
full disclosure, that in addition to freight forwarders, the 
Airforwarders Association also consists of air cargo screening 
technology companies and canine screening companies. But I am not going 
to tell you that privatized canines are a magic bullet when it comes to 
screening, because that would not square with our belief as an industry 
association that the best route to the highest level of safety and 
security is through a multi-layer, risk-based approach.
    Accordingly, what I am here to state is our belief that privatized 
canines can be a potentially valuable part of this multi-layer 
approach--another important tool in the toolbox, if you will--that also 
includes a range of other technology solutions and Government-trained 
canines for our members to utilize to meet screening requirements.
    The issue here, as we see it, is whether authorizing private 
companies to provide dogs to conduct security screening at Government-
certified freight forwarding facilities--assuming those dogs are 
trained and certified to Government standards--is a good thing to do. 
We believe that it is something that TSA should move forward with.
    As you are aware, canines have long proven to be an effective 
security tool. In the wake of the 9/11 Commission Recommendations Act 
that was passed by Congress in 2007, TSA created the Certified Cargo 
Screening Program (CCSP), which permitted certified freight companies 
to screen cargo away from the airport. The legislation also allowed 
screening to be performed through a variety of methods including 
physical inspection, X-ray, and explosive trace detection technology. 
Use of specially trained dogs was deemed as an acceptable way to screen 
air cargo.
    Unfortunately, TSA has permitted only the use of its own dogs, and 
only at the airport. TSA-owned canines are limited in number, busy at 
airport passenger terminals and are shared with airline freight 
facilities only as time and availability permit. So, for the hundreds 
of forwarders who operate off-airport Certified Cargo Screening 
Facilities (CCSF), there really is no option to use dogs on their 
premises.
    Just this month we surveyed our members and found that fully three-
quarters of the respondents--about half of whom operate CCSFs--say they 
would strongly consider using dogs provided by private companies if 
they were given the option to do that. Additionally, I know that Atlas, 
DHL, Fedex, UPS, and TNT are highly supportive of having the option to 
use privatized canines to screen cargo.
    Let me tell you about my own company's experience in operating a 
CCSF.
    In 2013, CFI's Los Angeles facility screened just over 6.7 million 
packages through a combination of ETD, X-ray, and metal detection. Due 
to the density of the produce, seafood, and proteins we move, most of 
the screening is done at the box level. Cold chain is another area that 
requires a more efficient method of screening. CFI spent about $1.6 
million on screeners, loaders, and fork-lift drivers to screen most of 
those 6.7 million cases. Companies such as Costco, Walmart, Tyson, 
Kuehne and Nagel and Sysco, are asking CFI for the least adverse 
screening method as possible, not just to control cost but to best 
maintain the quality of the food we ship and people eat.
    Accordingly, we are highly interested in any solution that can help 
us expedite the screening process, move our perishables more quickly 
through the supply chain, and still provide the utmost in safety and 
security of what we ship. We think dogs can really help us do that--
again, not as a magic bullet, but as an important option to help get 
the most out of the other solutions we are already using.
    Time is money in our business. And right now we believe that we 
could save over a million dollars a year at our LAX facility if we had 
access to a third-party solution deploying canines. Of course our 
customers would highly appreciate the time savings that this solution 
would help us achieve.
                    past testing of privatized dogs
    I understand that in 2011, TSA ran a pilot program to test the 
feasibility of implementing a third-party private explosive detection 
canine program that would make explosive detection dogs available to 
screen all cargo before it goes on passenger and all-cargo aircraft. I 
also understand that while the results were mixed, they offered 
encouragement that private-sector canines could meet TSA standards. I 
would hope that the lessons learned by the canine companies will be 
useful should you conduct further testing.
    I would add that, given the track record of canines in cargo 
screening, proceeding with a private-sector option--with solutions 
fully regulated, certified, and monitored by Government agencies--would 
square with other screening approaches such as in-house X-ray and ETD, 
where the Government does not develop the technologies and solutions 
in-house. Rather, it relies on the private sector to do this work and 
then puts it through rigid testing before authorizing it for use. We 
think this approach would work well for using dogs.
                               conclusion
    In conclusion, we urge TSA to finalize its efforts to develop a 
certification program for private companies to enable them to use their 
own canines, certified to TSA standards, to meet Federal air cargo 
screening mandates. Leveraging private-sector resources will introduce 
much-needed additional canines into the cargo screening system. The 
Aviation Security Advisory Committee (ASAC) comprised of stakeholders, 
including the Airforwarders Association and as diverse as the 
Association of Flight Attendants to the Pan Am 103 survivors have 
endorsed the concept of privatized screening. It is our hope that this 
hearing will spur what appears to be near-universal support for 
privatized canines.
    Thank you for this opportunity and I will be happy to answer any 
questions that you may have.

    Mr. Hudson. Thank you, Mr. Connell. I apologize for 
mispronouncing your name. One of my favorite bands in high 
school was the Connells from Raleigh, NC and I can't help it.
    Mr. Connell. It happens all the time.
    Mr. Hudson. So sorry about that. But thank you to all the 
witnesses.
    Before I begin my question I ask unanimous consent to 
insert a statement by K2 Solutions into the record, supporting 
the use of canine teams in explosive detection.
    Without objection, so ordered.
    [The information follows:]
                    Statement of K2 Solutions, Inc.
    Chairman Hudson, Ranking Member Richmond, and distinguished Members 
of the subcommittee: Thank you for the opportunity to present written 
testimony advocating for the effective utilization of canine teams in 
support of the United States' on-going efforts to improve and advance 
security measures. As president and chief operations officer of K2 
Solutions, Inc., it is my distinct honor and privilege to present a 
corporate perspective, derived from extensive experience in the canine 
industry, in an effort to aid Nation-wide efforts geared toward 
effective and efficient explosives detection and mitigation of related 
threats.
    The unparalleled efficacy of explosives detection canines has been 
supported and acknowledged by research scientists, Government 
officials, and politicians alike; by military advisors holding some of 
the highest-ranking positions within the Department of Defense; as well 
as soldiers in the ground forces who lived to tell stories of the dogs 
that saved their lives. It takes little effort to find quotes from 
high-ranking military officials touting canines as invaluable assets 
aiding in securing the protection of our troops in combat and the 
safety of our citizens at home. In his Memoirs, Robert M. Gates 
remarked, ``for all the technology, there was common agreement that one 
sensor worked better at detecting IEDs than anything else: a dog's 
nose.'' General Colin Powell has stated, ``war dogs have, indeed, 
served the nation well and saved many lives. Dogs continue to serve to 
protect Americans both in combat zones and in homeland security 
roles.'' General David Petraeus remarked, ``the capability they 
(Military Working Dogs) bring to the fight cannot be replicated by man 
or machine. By all measures of performance their yield outperforms any 
asset we have in our inventory. Our Army (and military) would be remiss 
if we failed to invest more in this incredibly valuable resource.''
    Even more prevalent are the stories of marines and soldiers who 
were supported by explosives detection canines in war zones and on the 
battlefield. These testimonials have a distinctly different tone than 
other canine-related accolades; the technical proficiency of the canine 
is embodied in the personal accounts as told by the men and women to 
whom these dogs were true partners. The following is a mere glimpse of 
the value of canine detection from the perspective of those standing on 
the front lines.

Lance Cpl. Jarrett Hatley: ``My dog Blue is pretty much like another 
Marine, I guess. He doesn't know he's doing it, but he's protecting all 
of us. If I have him on a patrol and there's an IED that could hurt us, 
I know he'll find it.''

Sgt. 1st Class Regina Johnson: ``There's no doubt about my dog: Number 
one, he will protect me. Number two, he will find a bomb.''

Staff Sgt. Robert Calhoun (following the unexpected death of his MWD, 
Rony): ``All I ever wanted was to save lives and contribute to the 
mission success. Rony saved lives. Rony saved my life when we went into 
an abandoned compound, and he found a 155-pound before I stepped on the 
pressure plate. Before we left, we were awarded the Bronze Star. He's 
the reason--he brought us home.''

While the nature of the commendation may vary depending on the source, 
there is unwavering support for the the utilization of canines in 
explosives detection and threat mitigation, which steadfastly remains 
one of the most valuable capabilities in our arsenal.
    Between 2004 and 2010, HEDDO spent approximately $19 billion 
researching and developing advanced technologies in an effort to 
produce equipment that could match the detection capabilities of a dog 
while being maintained at a lower cost. On June 20, 2010, Lieutenant 
General Michael Oates, then commander of the Joint Improvised Explosive 
Device Defeat Organization, told a conference, quite simply, that 
``dogs are the best detectors.'' Since that time, there have been no 
marked changes or advancements in detection technology; and to date, 
there exists no technology that can remotely rival the accuracy and 
efficiency of canines in the field of explosives detection.
    The time and money that has been spent by the U.S. Government in an 
attempt to solve a problem for which an obvious, efficient, and cost-
effective solution already exists has not gone unnoticed by the media 
nor by the taxpayers at large. While there is no question that 
technology plays an integral role in our Nation's overall advancement 
and is the driving force behind much of our success in developing and 
instituting state-of-the-art security measures both overseas and at 
home, it is imperative that the Congress recognize the value of 
utilizing canines for explosives detection--a technology that despite 
years of research and billions of dollars in investments remains 
unsurpassed.
    The utility of deploying canines as a security measure for the 
purpose of detecting explosives and mitigating related threats is 
incontrovertible. However, the degree of accuracy and consistency with 
which canines detect explosives and other hazardous materials is 
largely dependent upon the methodologies employed during training. As a 
result, substantial consideration should be given when determining 
whether Government and non-Government security agencies are adequately 
equipped to facilitate and maintain every aspect of a canine program 
internally--from initial training, to certification, to on-going 
sustainment training required for long-term effectiveness. While 
agencies such as the TSA have seen some success as a result of internal 
canine programs established to bolster transportation security, the GAO 
has pointed out that reports compiled on such internal-agency canine 
programs indicate areas of weakness such as inaccurate or inconsistent 
detection rates, insufficiencies in the training of both the canine and 
handler, and the credibility of internal evaluations and certifications 
of canine teams.
    By partnering with third-party providers such as K2, the TSA and 
Government security agencies will be positioned to take advantage of 
methodologies and training tactics that have proven successful in 
establishing effective canine detection programs for the Military, DoD, 
and local and Federal law enforcement agencies alike. Much of K2's 
success is a result of the company's focus on three essential areas of 
practice: Comprehensive analyses of programs and training initiatives, 
including follow-on training; continuous support and facilitation of 
research and development; and formulation and use of innovative 
technologies and services, such as explosive detection solutions that 
provide safe stand-off distance to personnel using the technology.
    Through the utilization of third-party vendors, the Government 
realizes the benefits of established techniques and procedures; this 
starts with the assessment and selection of quality canines. To date, 
K2 has successfully procured, trained, and assessed over 1,570 canines, 
and provided certifications and re-certifications for more than 800 
explosive-odor and narcotic-detection canines to military, law 
enforcement, and civilian clients around the world. This includes six 
major contract awards in support of the Marine Corps' Improvised 
Explosive Device Detector Dog (IDD) Program, U.S. Special Operations 
Command (USSOCOM), and the British Military Working Dog Program.
    Explosive detection teams can provide invaluable security support 
to transportation and security agencies when equipped with the proper 
initial training and requisite follow-on training. Advanced canine 
explosives detection teams are among the most effective in countering 
threats posed by IEDs and require more specialized training than the 
traditional detection canine, and such training is every bit as 
essential for the handler as it is for the canine. For instance, K2's 
Person-Borne Explosives Detection Dog (PBEDD) Teams have not only the 
ability to consistently detect person-borne explosives present in 
average amounts, but also to alert with remarkable accuracy on even 
trace amounts of odors. That said, even a canine team trained to the 
highest degree of excellence cannot be expected to maintain such rates 
of success in the absence of follow-on training. Because K2 views the 
canine team as a partnership, training is a team requirement; thus, 
training is always provided to the canine and the handler concurrently. 
By electing to out-source all or portions of the initial training, 
follow-on training, and/or advanced training to third-party experts, 
agencies will see marked increases in the consistency and overall 
success of explosive detection canine programs.
    An additional point worthy of note is the fact that agencies such 
as the TSA currently conduct evaluations and certifications in-house. 
While internal evaluations can be constructive if carried out regularly 
and uniformly, agencies would realize a greater benefit by engaging 
external sources to administer at least some percentage of the 
evaluations. The use of external evaluation teams has proven highly 
effective in providing consistent and objective results. Under a 
contract with Johns Hopkins University, K2 executed initial training 
using in-house resources available at the K2 K9 training facility, 
followed by intensive on-site training, to provide the University of 
Maryland with canines capable of detecting person-borne explosives in a 
matter of 14 weeks. This type of detection capability is very similar 
to the type of detection for which the TSA Passenger Screening Canines 
(PSCs) are intended. Because canine detection of person-borne 
explosives is a relatively new technology, it was imperative to seek 
external certifications to ensure objectivity and credibility. One of 
the main reasons this program has been so effective is that the 
International Police Work Dog Association (IPWDA) was engaged to 
objectively provide the certifications for the University of Maryland 
Program. It is worthy to note that the outcome of the certification was 
a 100 percent rate of passage, and the canines in the program have 
continued to exceed expectations. Regular testing and evaluation by an 
accredited objective entity such as the IPWDA is a critical component 
of any successful canine program.
    In the last 2 years, K2 has successfully supplied third-party 
certified handler teams to perform detection searches at a multitude of 
different sporting and recreational venues for security enhancement and 
has received positive feedback from clients across the board. 
Commercial vendors have found this type of relationship to be 
advantageous in that the client's objectives are satisfied without 
having to support canine kenneling, sustainment, and training exercises 
in-house. K2 ensures that its canines are constantly trained to detect 
newly developed threat odors and requires all in-house trained canine 
teams to be certified externally to ensure the canine teams' capability 
is evaluated in an objective manner. While outsourcing can be 
extraordinarily beneficial, the advantages are recognized fully only 
through the use of qualified third-party vendors.
    Over the past decade, the United States has spent significant 
resources, and born considerable sacrifice in developing battle-proven, 
highly-effective canine detection capabilities. One of the great 
benefits resulting from this effort is a clear template showing what 
works and what does not when it comes to optimizing canine detection 
programs. As our Nation shifts focus from theatres of operation to 
greater protection of the homeland against a wide array of threats, it 
is imperative that we recognize the necessity of using capabilities and 
methodologies that have seen consistent success in IED detection and 
related threat mitigation. In order to achieve optimum results, greater 
emphasis must be placed on the importance of Governmental and non-
Governmental agencies establishing partnerships and alliances with 
third-party providers that have a proven track record of success in the 
field of advanced canine explosive training and detection.

    Mr. Hudson. I will now recognize myself for 5 minutes to 
ask questions.
    I will start off just sort-of with a general question for 
everybody. I am obviously a strong proponent of a risk-based 
multi-layered approach to security. Having said that, I believe 
that canines are a highly effective, efficient, less-invasive 
tool than most of the technologies designed to detect 
explosives.
    I would like to hear from each of you. What qualities or 
capabilities, from your perspective, set canines apart from 
other explosive detection technologies that we can deploy at 
airports with passengers?
    So maybe we just go in the order of testimony.
    Ms. Harvey. Yes, sir. There are several qualities that 
separate canines from other explosive detection capabilities.
    At the airports the other primary technology that we use is 
explosive trace detection or ETDS. Canines are distinct from 
them in that they--the team provides a very visible deterrent. 
An officer or a TSI with a canine, there is no question that 
that is a deterrent to our adversaries.
    The second thing is it is very portable. So while an ETD or 
other equipment needs to be plugged in. It is very difficult to 
move from place to place. The team can go wherever the mission 
needs.
    The third thing is it is very highly effective detection 
capability. Along with that comes care and feeding of the team. 
So while an ETD has to be plugged in and isn't as portable, it 
is available 
24/7.
    So they are all important parts of TSA's multi-layered 
system. Thank you, sir.
    Mr. Hudson. Thank you.
    Ms. Lontz. Just to add onto what Ms. Harvey just said, I 
think it is reflective of how the canines can adapt so quickly 
as a threat evolves. Our philosophy for training our canines is 
for them to train in the environment in which they work.
    So our focus really is to ensure that they are the most 
capable asset that our canines are able to work in the multi-
modal transportation venues. So we are convinced that our 
training process does just that, and allows us to have a very 
adaptable canine program that can be utilized wherever 
necessary.
    Ms. Grover. My comment echoes much of what you have heard 
before, that what we have heard from TSA is that they value the 
canines as a very mobile screening tool that allows the agency 
greater flexibility to meet their needs. And that they also 
value them as one of the multiple layers of security.
    Mr. Connell. I guess, why canines? I would probably, you 
know, want to answer that question from another side.
    The issues we see with ETD, X-ray, and metal detection is 
the labor intensity that needs to go into to handle skids of 
product at the same level, be it not just produce, seafood 
needs, but also hard cargo, metal, things from Caterpillar, for 
example, or other items of such.
    We are finding that the high labor that needs to go into 
segregating these products to get them through at the piece 
level handles--creates overhead costs of not just manpower, 
inefficiencies of facility flow, you know log jams and getting 
cargo through to the airport. But the industry has managed to 
make due, if you will, to achieve cargo security through the 
layered approach.
    We feel dogs bring the ability to create more of an economy 
of scale through a set facility, allow us to kind of deploy 
manpower resources better through the supply chain, and at that 
point do it just better, you know where it is a better result 
versus a human interaction saying yes or no. I hope that 
answers your questions.
    Mr. Hudson. That is good. To build on that, you mentioned 
in your testimony that your company could save over a million 
dollars every year if it was able to use third-party canines to 
conduct primary screening. I guess some of these things you 
mentioned are ways you would do that, some of the efficiencies 
you could find not having to unpack everything and run it 
through.
    But what sort of challenges, though, on the other hand, do 
you currently encounter by using existing screening 
technologies other than--maybe you could expound on what you 
were saying that you--and how would that work with canines 
versus how it works now? Maybe you could get us a little deeper 
into your experience there.
    Mr. Connell. Yes. I would say our experience, as example 
you bring in a skid of cherries. We owe 80 cases. Well, every 
one of those 80 cases have to be run separately through a 
machine similar to bags. There is obviously the manpower to do 
that, the timing, keeping it within the cool chain for better 
quality arrival.
    Mr. Hudson. If I can interrupt, what size machine are you 
running them through?
    Mr. Connell. We are running them through--we actually had a 
skidded X-ray--or a skidded metal detector at one point, but 
the technology was not good enough to see the middle of the 
skid. So we deemed that technology--it is available for other 
cargos, not available to many different types of cargo 
including produce. There is too much water and too much density 
through the product.
    So then we had to break that down and put it through really 
almost a machine that is similar to the bags where it is a 
small machine, we are putting it right through and we are 
putting 80 single cases through that facility through that one 
machine.
    We found out things of such where there was not just the 
issue of timing and manpower and having to do this in a 
refrigerated environment or breaking the refrigerated 
environment that hurts the value of this produce, for example.
    We also found out that the actual physical of moving cases 
and lumping them from place to place to place, skid, to 
machine, back onto a skid, for example, created you know a 
fracturing of the product and actually created product quality 
issues for many of our growers.
    So that is just one example. There is an unforeseen quality 
hit that would occur when screening it this way. Compared to 
you know other countries who screen--because we compete in the 
global environment. Canada has picked cherries, things of that 
nature.
    I would say that is probably the No. 1 issue we saw through 
that throughput, also the ability to handle spikes in volume. 
It is an agricultural product. So we have to go in and ensure 
and on where we can triple our volume in a single day, stacking 
for that, making sure you can manage that, preventing backlogs, 
making airplanes. Just being efficient.
    We are not talking about efficiency, just purely to put in 
our pockets. It is also efficiency that allows us to move more 
cargo, gives us an economy of scale, helps our airline vendors 
and also allows the customers to have a better consumer price 
at the end either coming into or out of the United States.
    Mr. Hudson. Great. Thank you. My time is expired. So I will 
now recognize the Ranking Minority Member of the subcommittee, 
the gentleman from Louisiana, Mr. Richmond, for any questions 
he may have.
    Mr. Richmond. Thank you, Mr. Chairman.
    I will start with you, Ms. Grover. In your written--in your 
prepared remarks you mentioned that TSA has improved its 
analysis of canine program data relative to what you all found 
in 2013. Is TSA doing enough data analysis to keep track of how 
well the program is working?
    Ms. Grover. Yes, sir. They have made significant 
improvements during this past year. Perhaps most importantly is 
the staffing of their new Performance Measurements Office that 
is designed specifically to review the canine team program 
data.
    In addition, they have taken several steps to address 
specific issues that we raised in our report such as they are 
now tracking compliance with the training minute requirement 
over time rather than just month-to-month. They are also doing 
much more detailed analysis of the reasons for the teams that 
fail the short notice assessments, you know the covert testing.
    So as long as they continue to maintain the level of 
analysis that is currently in place and currently planned, and 
then take steps as required to address the findings, then they 
should be in good shape for robust oversight of the program.
    Mr. Richmond. Thank you.
    Ms. Lontz and Ms. Harvey, the 2013 report highlighted the 
concerns of various aviation industry stakeholders regarding 
the deployment of PSC teams, specifically those representing 
the law enforcement community. Three questions from that.
    How does TSA work to mitigate stakeholders' concerns 
regarding the deployment of PSC teams? Are they supportive of 
TSA's efforts to deploy the teams as part of Managed Inclusion? 
Has the law enforcement community expressed concerns regarding 
the further expansion of the use of PSC teams in the airport?
    Ms. Harvey. Thank you, sir. TSA has taken several steps to 
address stakeholder concerns.
    When we originally rolled out the PSC teams the concerns 
from our stakeholders were that there were going to be 
excessive hits, for lack of a better word, of the teams, and 
they would close down checkpoints or parts of the airport and 
you know cause excessive wait times for passengers.
    As they have rolled out that has turned out not to be the 
case. We have an average of 6 to 8 responses across the country 
every week. I think there has only been one shut-down since the 
start of the program, and that was over 2 years ago.
    So our approach to rolling out the teams has been to work 
very closely with the airports, with the airport operators, as 
well as the law enforcement at those airports to ensure they 
understand our CONOPS and what resolution procedures are going 
to be available and if in fact there is a hit.
    You asked specifically about their use in Managed Inclusion 
and any law enforcement concerns. Again when we rolled out the 
program there were some concerns from the law enforcement 
community about the resolution procedures. The way that we use 
the teams at the checkpoint there are all of the technologies 
at the checkpoint to resolve any alarms that the PSCs have in 
the queue, and so most of those concerns have been alleviated.
    Your final question is whether concerns remain with law 
enforcement over expansion of the program. Again, there are 
still, I am sure, some concerns, not so much about expansion, 
but again in understanding the resolution procedures that are 
used when there is a response of the canine team.
    Thank you.
    Mr. Richmond. Mr. Connell, in your prepared testimony you 
cite the expense associated with screening cargo at the box 
level. Is--a million dollars is what you think you all would 
save using a third-party canine team?
    Mr. Connell. Canine teams have not established there is 
that pricing yet because they don't--they cannot tell us what 
their whole processes will be from the TSA. But our estimate is 
assuming there will be some cost coming in that about a million 
could be saved, you know $800,000 to $1 million could be saved 
just in that facility alone.
    Not just to mention the through-put that comes out on 
quality of product and other you know unattainable--
unachievable items that are hard to really describe.
    Mr. Richmond. Have you had a chance to talk about your 
industry and your view with--concerning third-party canine 
screening with TSA? If so, has TSA been receptive?
    Mr. Connell. We have not had--originally when CCSF came up 
we had light discussions about the idea of canines. But--and 
basically there was a huge mountain of stuff to get through, so 
to speak, so that probably fell to the bottom.
    Since then the general questions we have had multiple years 
ago have been that it was just not going to happen. So we 
basically focused on other things that were more achievable.
    I have talked to some of my competitors and some of the 
industry people who have said they really had the same thing, 
they just gave up on having the conversation because the few 
times it came up it never really got anywhere, for all the 
wrong or right reasons, budgetary, et cetera, had to go through 
protocols.
    So we were in a way basically discouraged from having more 
discussions because why waste our time?
    Mr. Richmond. I see my time is expired, but just one last 
quick question. We have heard all the good stuff and everybody 
supports it. Anyone in your industry opposed to it? If so, who?
    Mr. Connell. You know I would say everyone is encouraged by 
the idea of it. We obviously have to get through a cost 
analysis, a detailed drill-down of what is required and things 
of that nature.
    I would say you know maybe an average Joe, people, you know 
the technology companies who do X-rays and metal detection 
might not be the most positive on this. But again, it is a 
layered approach. We have to have all those tools in the bucket 
per se.
    But from talking to the AFA respondents, talking to people, 
competitors, people in the industry, I have not seen any 
negative pushback from people who actually physically handle 
the cargo.
    Mr. Hudson. Thank you, Mr. Richmond.
    Chairman will now recognize other Members of the committee 
for questions they wish to ask the witnesses. In accordance 
with our committee rules and practice I plan to recognize 
Members who were present at the start of the hearing by 
seniority on the subcommittee. Those coming in later will be 
recognized in the order of arrival.
    Next I will recognize the gentleman from Alabama, Mr. 
Rogers, for any questions he may have.
    Mr. Rogers. Thank you, Mr. Chairman. This has been very 
encouraging. As you all know I have been working on this for 
many, many years and can talk about this subject until you get 
glass-eyed.
    So I am thrilled to hear you all are embracing the efficacy 
of these explosive detection canines. I think you would agree 
with me that they are the most effective tool that we have. 
There is nothing that compares to the efficacy of these 
canines, particularly the explosive--the vapor wake canines in 
detecting explosives.
    But the purpose of this hearing is to try to figure out why 
we haven't gotten more private third-party providers because 
obviously TSA can only grow so far with their canine breeding 
and training programs can only grow so far so fast.
    So let me ask, and this would be for Ms. Harvey or Ms. 
Lontz, how many of the Category X airports now have explosive 
detection canines deployed?
    Ms. Harvey. Sir, every CAT X airport and all CAT 1 airports 
with the exception of four have some sort of explosive 
detection canine capability, whether it is led by the State and 
local law enforcement or TSA.
    Mr. Rogers. Do you know of those how many are vapor wake 
canines?
    Ms. Harvey. So we are authorized for 144 passenger 
screening canine, which is a little bit distinct from the vapor 
wake, but the same concept. Those are currently allocated to 36 
airports.
    Mr. Rogers. Okay. Do you know if most of the passengers are 
screened by those canines as they go through the security 
systems?
    Ms. Harvey. So that is something that distinguishes a PSC 
from the technology, to the question that was asked earlier. If 
the passenger screening team is there and depending on the 
configuration of the queue, the PSC team can screen every 
passenger that goes through the checkpoint when they are 
present.
    Mr. Rogers. What about if somebody leaves a bag in the 
airport? Let's just say it is an absent-minded traveler who 
left their bag outside the restroom, goes to the terminal, 20 
minutes later realizes it is missing and goes back. But in the 
mean time it has been reported.
    When the security personnel are deployed to that bag, what 
is--is a canine part of that deployment to determine whether or 
not there are explosives in it? Or how do they approach that 
bag?
    Ms. Harvey. So in general the airport law enforcement are 
the officials who respond to those. If there are canine 
available, yes, many times they ask for that support.
    Mr. Rogers. Absent a canine what happens?
    Ms. Harvey. They follow their agency's protocols.
    Mr. Rogers. Which would be?
    Ms. Harvey. I am not familiar with every--with the law 
enforcement protocols.
    Mr. Rogers. Well let me ask, clearly you all have embraced 
this. What is impeding you putting more of these canines into 
more of the airports beyond the Category X? I would imagine in 
the Category X airports you don't have 24-hour or multi-shift 
coverage.
    Ms. Harvey. Yes. So it depends on the airport the number of 
teams that we have. There are some airports that have a large 
number, again adding up the TSA-led teams with the law 
enforcement teams.
    We have allocated the teams that we have. Our numbers have 
grown significantly over the past few years, as somebody 
mentioned has doubled since the early 2000s. The only--right 
now the only hold-up on deploying more teams would be our 
capacity to train the teams and get them certified.
    Mr. Rogers. Well, I agree. Trust me, I know why it took so 
long. I have been pushing it for the last 10 years.
    But my question is--I fully appreciate the limit on the 
capacity of what you can do in training and your own. But there 
are third parties out there who can do the same training that 
meets your standards. Why aren't we seeing those private 
providers utilized more? Because the Defense Department has 
been doing this for years. Why aren't you all using the private 
folks more?
    This may be for Ms. Lontz. I don't--it doesn't----
    Ms. Harvey. Are you asking why we aren't using those to 
train the teams, the private providers?
    Mr. Rogers. To get them in airports. There are private 
folks that do exactly what you are doing inside your own 
program to breed appropriate bloodlines, train them up, to 
certify them, and then deploy them, just like you do. Why 
aren't we seeing those people used to supplement what you are 
doing to cover additional airports, bus stations, train 
stations, and whatever?
    Ms. Lontz. Certainly. So this is one of those outstanding 
questions that in addition to our resource concerns that the 
exact nature of TSA's role in the training, and in certifying 
and maintaining the oversight and the proficiency that would 
need to be worked out.
    Mr. Rogers. What kind of time line do you think that is 
going to work out?
    Ms. Harvey. So, we have--to summarize, in 2011 we did the 
pilot. While the results were somewhat promising, there were 
two providers. One of them provided teams that could, we 
believe, meet TSA standards. The other provider did not. It 
went through I think two canine providers and couldn't pass the 
basic code of recognition test.
    After that to test the interest from industry sort-of fell 
away while they were focused on what technology they could use 
to meet the 100 percent mandate. Since that time we have been 
busy rolling out the passenger screening canine teams.
    Given that there is renewed interest from industry, we are 
going to take a look at those concepts, at the third-party 
canine concept.
    Mr. Rogers. Unfortunately my time is expired. I yield back.
    Mr. Hudson. Thank the gentleman.
    I recognize the gentlelady from Indiana, Mrs. Brooks, for 
any questions she may have.
    Mrs. Brooks. Thank you, Mr. Chairman. I would like to just 
continue that line of questioning that my colleague just had 
because that is actually the area that I was really quite 
interested in because we certainly know that whenever we as--
now as a new Member of Congress, we are traveling through more 
airports and more train stations than ever before, and bus 
stations.
    There is a level of great comfort actually when you see a 
canine team there. But yet I am very familiar, having worked in 
law enforcement, that they only have a period of time that they 
can work every day because then they fatigue and they are not 
as effective.
    So going to what gentleman from Alabama's point is, is 
certainly there must be a number of canine providers in the 
industry that are interested. If the pilot only involved two 
different providers, how many providers are there? I would ask 
you know the whole panel, that are interested in participating 
and then you know increasing this public-private partnership? 
That is essentially what it would be, would be a public-private 
partnership.
    I appreciate that you would need to you know make sure that 
they meet your level of training. But how many different groups 
are out there that would be interested, if you know, or that 
you are working with? Two seems just unbelievable to me.
    Ms. Harvey. So the two that were--the two that participated 
in the pilot were carriers. They contracted out with canine 
providers. I don't know how many canine providers there are in 
the industry.
    Mrs. Brooks. Does anyone have any idea how many canine 
providers there might be who might be willing to supplement 
TSA's efforts?
    Ms. Grover. No, I don't. GAO hasn't looked at that specific 
issue.
    Mr. Connell. I am not familiar with the exact count. I know 
in our research we definitely saw three that in particular were 
interested. I know there is a whole host of others that have 
been discouraged through what they feel a lackadaisical 
approach of testing standards, the ability to benchmark against 
current TSA dogs and how that translates to test criteria. But 
we can continue to vet them.
    But I know there were some questions on, you know, is it 
worth their while type of thing. I think that is what is 
important to kind-of get established, you know the testing 
criteria, before you can bring more member canine units in.
    Mrs. Brooks. Would you agree, however, Mr. Connell, that 
there could be, as you have said, significant savings if we 
could supplement the number of canine teams that we had, and we 
ought to be encouraging the industry, those that are, you know, 
training the canines, that we really ought to have a huge push 
on this because of the savings that could really benefit your 
industry?
    Mr. Connell. Yes, I would totally agree. Time is money. But 
also is a point where you know companies want--they were 
willing to fill a gap if the business model is there. I think 
the ability to know that is an achievable business model will 
definitely generate interest among many dog providers to 
provide so, if not necessarily from public or from private 
funds.
    Mrs. Brooks. Ms. Lontz, the other Federal agencies use 
canine teams, whether it is nuclear power plants, United 
States, our military personnel. Are you familiar, are they 
using third-party canine providers? What have any of the 
lessons been from other agencies that TSA maybe has explored?
    Ms. Lontz. I am sorry. I am not familiar with what the 
other agencies are utilizing and if they are using a third-
party canine. We could certainly explore that though.
    Mrs. Brooks. Is anyone else aware whether or not other 
Federal agencies are using any third-party providers? Okay.
    I certainly hope that we do explore that because I think 
that it is an incredible tool that we need to add and expand 
on. I have got to believe that those in the canine industry and 
who raise these types of incredible dogs would be very willing 
and would love to probably get involved in this type of work. 
So I just want to thank you for your work on behalf of keeping 
us all safe. Thank you.
    Mr. Hudson. Well, thank you. I think there is enough 
interest if the witnesses are willing to stick around a little 
bit longer, maybe we will get through another round. If that 
is--I don't see any no--we will try to keep it fairly brief. 
But this is a great discussion. I appreciate the witnesses' 
indulgence.
    I will recognize myself for 5 minutes, but I won't take all 
that time. But one of the issues I was really surprised to 
learn is that there are four separate offices within TSA that 
handle canines.
    Ms. Harvey and Ms. Lontz, maybe you could help me 
understand why. What are the different responsibilities? Why do 
we have four different offices that sort of all deal with one--
with the canine issue?
    Ms. Harvey. Sir, a few years ago actually TSA combined the 
entire canine program into the Office of Security Operations, 
which is the organization that I work for. Ms. Lontz's 
organization provides the--they procure the canine, train the 
canines, and then provide certification of the program. But 
there are only two offices in TSA that lead the program.
    Mr. Hudson. Good. Well, that is--that was my question. So I 
will go ahead and yield to the Ranking Member, Mr. Richmond, 
for the question he may have.
    Mr. Richmond. Thank you, Mr. Chairman. I only have one, and 
it is for you, Ms. Grover.
    Last year GAO recommended that TSA conduct comparison tests 
to determine whether passenger screening canines perform better 
in the passenger screening environment than traditional 
explosive detection canine teams. Have you all conducted that 
test? If so, what is the result? If not, when will you conduct 
it?
    Ms. Grover. Thank you, sir. We did recommend that TSA 
compare the effectiveness of the PSC canines to the 
conventional canines. They have not done so yet.
    It is our hope that they will do so as soon as is 
reasonably possible because the PSC canines do cost more to 
deploy. They cost more to start up and then they cost more to 
maintain on an annual basis. So it is important to determine 
that they offer an enhanced benefit relative to the 
conventional canines, which are less expensive.
    Mr. Richmond. Would anyone like to say if and when we are 
going to do that?
    Ms. Harvey. Yes, sir. So we have received--we always 
appreciate GAO's advice on this. We--from a training philosophy 
standpoint we believe that we should train our resources to 
operate in the environment where we are going to deploy them.
    For passenger screening canine they get an extra 2 weeks of 
training. They cost about $18,000 more than traditional canine 
in the initial year and then $4,000 more in the out-years based 
on its additional certification. They receive specific training 
in terms of how to operate in and around passengers. Again, it 
is a training philosophy problem that we have with GAO's 
recommendation.
    That said, I have asked DHS S&T to give us an analysis of 
the feasibility of conducting such a study with two concerns. 
One, the traditional canine aren't--we don't necessarily look 
at the breed or suitability of that canine for working in and 
around people. So I have concerns about bites.
    So we need to be very careful about the teams that we pick 
as well as the protocols that we choose. We--S&T is going to 
give us a feasibility study on that sometime in the next 30 
days.
    Mr. Richmond. Thank you. Thank you all for being here.
    Mr. Chairman, I yield back.
    Mr. Hudson. Thank the gentleman. I will recognize Mr. 
Rogers for any additional questions.
    Mr. Rogers. Thank you, Mr. Chairman.
    Ms. Harvey, what do you mean by traditional canine? I have 
heard you use the word conventional also.
    Ms. Harvey. Sir, the traditional or conventional. I mean 
the traditional explosive detection canine that are trained to 
screen inanimate objects and are not specifically trained to 
screen people.
    Mr. Rogers. Not the vapor wake?
    Ms. Harvey. Correct.
    Mr. Rogers. Great.
    How many--you know you talked about you finished your pilot 
study and now you are looking toward rolling out this on a 
broader scale. Do you have a time line now that you think you 
will be able to grow this program substantially?
    Ms. Harvey. Sir, are you referring to passenger screening 
canine?
    Mr. Rogers. Passenger screening canines who probably will 
have to be mostly private, given the capacity of limitations 
you are going to have inside TSA.
    Ms. Harvey. So we have allocated all of the teams that we 
currently have funding for. That is 144 passenger screening 
canine team. We have the in-house capability to provide the 
canines and the training for that amount.
    Mr. Rogers. If money were not your concern, and it is not, 
it is our concern, how many do you need?
    Ms. Harvey. That is a good question, sir.
    Mr. Rogers. Airports. Let's don't even talk about trains 
and bus stations and----
    Ms. Harvey. Sure.
    Mr. Rogers [continuing]. Freight. Just for airplanes.
    Ms. Harvey. So currently we are at 19 out of 28 CAT X 
airports. So if we wanted to deploy these teams to all the CAT 
X airports we would need whatever that number is, 32 additional 
teams.
    Mr. Rogers. Then to go beyond Category X airports, I guess 
you would like to go there, too, wouldn't you? As the next 
natural progression in this process.
    Ms. Harvey. We will--our approach is we will--every 
additional team that we get, we will apply it to the highest-
risk airport that is left that doesn't have that capability. So 
we will just march down that list as we receive additional 
teams.
    Mr. Rogers. I would ask, for the record, if you will go 
back and look and see how much more money you think you would 
need to cover the balance of the Category X airports. Give me 
an idea about--for the committee, the idea how much it would 
cost and how many teams. Or just how many teams----
    Ms. Harvey. Okay.
    Mr. Rogers [continuing]. Not just about the cost.
    Ms. Harvey. Yes, sir.
    Mr. Rogers. Mr. Connell, you talked about wanting to use it 
for freight. I think that they are a great way for us to 
achieve a higher degree of scrutiny for freight. Have you had 
much interaction with TSA about this--these standards? You 
mentioned a little while ago that some of the private 
contractors were frustrated by the varying degrees of 
certification or criteria for certification. Is that accurate?
    Mr. Connell. Correct. I mean I am not an expert on dogs, 
per se. But in surveying multiple vendors on kind of how the 
tests were run in 2011--and again not being an expert, there 
was just a common-sense approach of you know if you are going 
to run the test have a TSA dog go through it first to benchmark 
it that it works. Then have the private dog go after.
    Mr. Rogers. But now, Ms. Lontz, didn't you say----
    Mr. Connell. That is my impression that did not happen.
    Mr. Rogers [coninuing]. Didn't you say a little while ago 
you now have an office of certification that you--maybe it 
wasn't Ms. Lontz. Maybe it was you, Ms. Harvey.
    Ms. Harvey. Yes. TSA certifies each of its teams that we 
deploy, whether it is led by a TSA handler or a law enforcement 
handler, and conducts an annual recertification as well.
    Mr. Rogers. So the concerns that Mr. Connell was expressing 
about providers getting frustrated that they were moving 
targets as far as criteria, that is no longer an issue?
    Ms. Harvey. I am unaware of that being an issue.
    Mr. Rogers. Okay.
    Mr. Connell, do you think that using canines would help you 
fulfill 100 percent screening mandate that is always being 
asked for in your industry?
    Mr. Connell. Correct. I think we are currently doing the 
100 percent. But I think it will allow us to No. 1, do it 
better; to do it more efficiently; and No. 3, do it where it 
can control costs in such a way that it can only help the 
consumer pricing to be better controlled.
    Mr. Rogers. So as far as your industry being able to reach 
out to third-party providers, the only thing--and I could be 
misinterpreting what you were saying. The only thing standing 
in the way is the certification process by TSA. Is that 
correct?
    Mr. Connell. Agreed. I would phrase it slightly different 
than that in that it allows us to go and find out what the true 
costs are to each facility. Forwarders teaming up together to 
you know chip in on the service, so to speak. But I would say 
you know having that ability to do so would allow us to take 
that next very large step forward and checking the economics of 
it.
    Mr. Rogers. Well, I just know that I have had, you know, 
FedEx, UPS, DHL all have expressed interest in being able to 
use this technology to meet their 100 percent screening, along 
with other things--other information and things that they use.
    So I guess my question then to Ms. Harvey would be: Do you 
think that we are very close to the point that these third-
party providers could in a pretty easy way access that 
certification process through your office so that they could 
provide this screening for these private freight providers?
    Ms. Harvey. Sir, I wouldn't say that we are exceptionally 
close to that decision. There are a lot of things that would 
need to be worked out in terms of roles and responsibilities. 
Who provides the explosives?
    If TSA provides the explosives, we also need to provide 
oversight of how those explosives are handled. We need to work 
out rules and responsibilities in terms of certification and 
recertification every year, as well as training expectations, 
who is doing the training. No funding has been identified for 
this effort.
    Mr. Rogers. Well, let me close by saying anything I can do 
to help you, you let me know. Thank you.
    Thank you all for being here.
    Mr. Hudson. Thank the gentleman. I thank the witnesses for 
indulging us. I am sorry the vote schedule kept you here a lot 
longer than you intended. I appreciate you hanging with us, and 
thank you for your testimony today.
    Thank the Members for the good questions. Members of the 
subcommittee may have some additional questions for the 
witnesses, and I would ask that you respond to these in 
writing.
    Without objection, subcommittee stands adjourned.
    [Whereupon, at 3:58 p.m., the subcommittee was adjourned.]


                            A P P E N D I X

                              ----------                              

   Questions Submitted By Chairman Richard Hudson for Melanie Harvey
    Question 1a. At the hearing, you stated that there were only 2 
offices in TSA that lead the National Explosives Detection Canine Team 
Program (NEDCTP)--the Office of Security Operations and the Office of 
Law Enforcement/Federal Air Marshal Service. However, according to 
information provided by TSA, there are two additional offices within 
TSA that are responsible for some aspect of the canine program, 
specifically, the Office of Security Capabilities and the Office of 
Security Policy and Industry Engagement.
    Can you identify the responsibilities each of these four offices 
has related to the NEDCTP?
    Question 1b. While I understand each office may have a unique role 
to play, it would seem that in order to ensure efficiency and 
consistency across the spectrum of canine deployments, the 
responsibilities for the NEDCTP could be consolidated further.
    Question 1c. Has TSA done an analysis to determine whether there 
are any roles and responsibilities that could be consolidated further 
for the NEDCTP?
    Answer. The Transportation Security Administration's (TSA) Office 
of Security Operations (OSO) has overall responsibility for leadership 
of the National Explosive Detection Canine Team Program (NEDCTP). OSO 
manages the full range of the program including developing 
requirements, acquisition, program and financial management, allocation 
and deployment, canine operations, policy, performance measures, and 
field assessments.
    The Office of Law Enforcement/Federal Air Marshal Service, Canine 
Training and Evaluation Section (CTES) supports NEDCTP's mission by 
providing training and certification for all canine teams. This 
includes selecting and training canines, training handlers, and 
conducting initial and recurrent certification of teams by field 
training visits and assessments. CTES ensures highly trained and 
capable handlers and canines, both Federal (TSA-lead teams) and non-
Federal law enforcement, are deployed to detect and deter the 
introduction of explosives into our Nation's transportation system.
    Many offices within TSA support NEDCTP in their respective areas of 
expertise. For example, TSA's Office of Security Capabilities Test and 
Evaluation group is a Department of Homeland Security-designated 
Operational Test Agent that provides independent expertise and 
resources using program-neutral policies to test and evaluate 
technologies, processes, and procedures. OSC provides this support 
across TSA for security technologies and capabilities, including to OSO 
for NEDCTP. The Office of Security Policy and Industry Engagement leads 
TSA's policy development and industry engagement and in 2011 played a 
major role in the Third-Party Canine pilot, which assessed industry's 
capability to use canine teams to screen air cargo. However, NEDCTP 
provided the canine subject-matter expertise for the initiative and is 
TSA's lead organization for all canine matters.
    Question 1d. I understand the Office of Security Policy and 
Industry Engagement is responsible for discussing the issue of third-
party certification with the air cargo industry; would this office also 
be responsible for implementing any such certification process, or 
would it be implemented by another office within TSA?
    Answer. All canine certification activities are conducted by TSA's 
Office of Law Enforcement/Federal Air Marshal Service.
  Questions Submitted By Vice Chairman Michael D. Rogers for Melanie 
                       Harvey and Annmarie Lontz
    Question 1. Is TSA aware that the following Federal agencies have 
been using Third-Party Canine assets to protect critical 
infrastructure, Federal employees, and military personnel?
  <bullet> Department of Defense
  <bullet> Federal Protective Service
  <bullet> Department of State
  <bullet> Department of Homeland Security
  <bullet> United States Marshalls
  <bullet> Department of Energy
  <bullet> Department of Treasury
  <bullet> Internal Revenue Service
  <bullet> National Park Service
  <bullet> Multiple Federal Intelligence Agencies
    Answer. Yes, the Transportation Security Administration (TSA) is 
aware of other Federal agencies' use of Third-Party Canine assets in 
support of their unique missions. Canine units vary in mission and 
operational environment. TSA is an active participant on the National 
Security Council--Transborder Security Sub-Interagency Policy Committee 
(Sub-IPC) on Working Dogs. This Sub-IPC is one forum at which Federal 
agencies with canine programs share information on their unique 
programs and missions, as well as best practices.
    Question 2a. Is TSA aware these same agencies have testing and 
certification standards for use of Third-Party Cannes?
    Has TSA spoken to these other agencies regarding their use of 
Third-Party Canines?
    Question 2b. Why does TSA need to implement their own testing 
standards for Third-Party Canine operators? Are no other Federal 
standards sufficient to protect critical infrastructure or personnel?
    Answer. The Transportation Security Administration (TSA) is aware 
that some of the Federal agencies rely on external resources for 
testing and certification of some of their canine teams. The North 
American Police Work Dog Association, United States Police Canine 
Association, International Police Work Association, and Auburn 
University are a few which offer various services in support of canine 
testing and certification.
    TSA has spoken with many of these agencies on various aspects of 
their programs, including the environments in which they are deployed 
and how they are tested, certified, and regulated in support of their 
unique missions. Additionally, TSA is an active participant on the 
National Security Council (NSC)--Transborder Security Sub-Interagency 
Policy Committee (Sub-IPC) on Working Dogs. This Sub-IPC is one forum 
at which Federal agencies with canine programs share information and 
best practices.
    The mission of the National Explosive Detection Canine Team Program 
(NEDCTP) is to deter and prevent explosives from entering the 
transportation system, including mitigating the threat to aviation. The 
margin of error for detection of a threat that can bring down an 
aircraft is much smaller than other agencies' threats. TSA's standards 
for training, testing, and certification of canine teams ensure that 
TSA is making the most efficient use of resources to mitigate that 
threat.
    There are no Federal standards, and the standards used by the 
agencies listed above vary significantly from one organization to 
another in support of their unique missions. TSA continues to work as 
part of the Sub-IPC on Working Dogs which seeks to establish guidelines 
for Federal, State, local, and private-sector explosives detection 
canine assets. The guidelines were promulgated by the Sub-IPC to all 
Federal stakeholders for comment in July, and it is our understanding 
that they will be published in draft form for comment to stakeholders 
once Federal comments are adjudicated. When implemented, they could be 
used as a baseline standard to enhance interoperability and 
capabilities among the varying agencies.
    Question 3. What are TSA's testing and certification standards for 
Third-Party Canines?
    Answer. The Transportation Security Administration (TSA) has not 
set standards for the testing and certification of Third-Party Canines. 
In the event that the pilot is successful and results in a viable 
program, TSA will need to determine resource requirements and 
methodology, establish TSA and stakeholder roles and responsibilities, 
and implement any variation from TSA's current test and evaluation 
standards for Third-Party Canines.

                                 [all]
</pre></body></html>
